<html>
<title> - COSCO BUSAN AND MARINE CASUALTY INVESTIGATION PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          COSCO BUSAN AND MARINE CASUALTY INVESTIGATION PROGRAM

=======================================================================

                               (110-112)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
41-945 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Salerno, Rear Admiral Brian, Assistant Commandant for Marine 
  Safety, Security, and Stewardship, United States Coast Guard...     5
Richards, Anne, Assistant Inspector General for Audits, Homeland 
  Security.......................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    54
Pelosi, Hon. Nancy, of California, and Speaker of the U.S. House 
  of Representatives.............................................    65

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Richards, Anne L.................................................    67
Salerno, Rear Admiral Brian......................................    74

                       SUBMISSIONS FOR THE RECORD

Salerno, Rear Admiral Brian, Assistant Commandant for Marine 
  Safety, Security, and Stewardship, United States Coast Guard:

  Response to request for information............................    17
  Response to request for information............................    20
  Response to request for information............................    25
  Response to request for information............................    30
  Response to request for information............................    32
  Response to request for information............................    35
  Response to request for information............................    38
  Response to request for information............................    40
  Response to request for information............................    48
  Responses to questions from the Subcommittee...................    83

                        ADDITIONS TO THE RECORD

San Francisco Department of Emergency Management, Vicki Hennessy, 
  Acting Executive Director, written statement...................    97

[GRAPHIC] [TIFF OMITTED] T1945.001

[GRAPHIC] [TIFF OMITTED] T1945.002

[GRAPHIC] [TIFF OMITTED] T1945.003

[GRAPHIC] [TIFF OMITTED] T1945.004

[GRAPHIC] [TIFF OMITTED] T1945.005

[GRAPHIC] [TIFF OMITTED] T1945.006

[GRAPHIC] [TIFF OMITTED] T1945.007

[GRAPHIC] [TIFF OMITTED] T1945.008

[GRAPHIC] [TIFF OMITTED] T1945.009

[GRAPHIC] [TIFF OMITTED] T1945.010

[GRAPHIC] [TIFF OMITTED] T1945.011

[GRAPHIC] [TIFF OMITTED] T1945.012



    HEARING ON COSCO BUSAN AND MARINE CASUALTY INVESTIGATION PROGRAM

                              ----------                              


                        Thursday, April 10, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Subcommittee will now come to order.
    Today's hearing gives us the opportunity to receive the 
report developed by the Department of Homeland Security's 
Office of Inspector General in response to a request made by 
Speaker Pelosi and myself for a comprehensive examination of 
the circumstances surrounding the allision of the COSCO BUSAN 
with the San Francisco Bay Bridge on November 7th, 2007.
    We made that request following a special field hearing held 
by this Subcommittee in mid-November in San Francisco, during 
which we began our examination of this incident. At the time of 
that hearing, I promised that our Subcommittee would continue 
to follow up on this incident until we understood the facts 
surrounding it and, more importantly, had identified the 
lessons from it that needed to be applied to improve the safety 
of the maritime transportation industry. We continue to fulfill 
that promise today.
    A number of investigations of the COSCO BUSAN allision are 
ongoing, including a critical review by the National 
Transportation Safety Board which is examining issues 
surrounding probable cause that we are not in a position to 
examine here today. We look forward to reviewing the results of 
those investigations when they are available.
    Today, we specifically examine the Inspector General's 
findings regarding the role of the Vessel Traffic Service in 
the COSCO BUSAN allision, the adequacy of the Coast Guard's 
post-accident investigation, and the infectiveness of the 
response to the oil spill mounted by the Coast Guard and by 
State and local officials. We will cover all aspects of the 
report during the course of our hearing and look forward to the 
testimony of Ms. Anne Richards, Assistant Inspector General for 
Audits, who is representing Inspector General Skinner today.
    However, let me say at the outset that I am deeply 
disturbed to learn that the Marine casualty investigators who 
responded to this incident were not qualified as casualty 
investigators and that the apparent lack of job knowledge 
caused them to fail to secure certain critical evidence. I 
cannot believe that the Coast Guard would ever send someone who 
was not qualified, as a pilot of a plane or a helicopter. Yet, 
we have a circumstance here in which the individuals who were 
not qualified as casualty investigators were sent to examine a 
marine casualty that involved a 900-foot ocean-going vessel 
that had just hit the San Francisco Bay Bridge and was leaking 
thousands of gallons of oil into the San Francisco Bay.
    During the second half of today's hearing we will focus on 
the tragic loss of a fishing vessel, ALASKA RANGER, which sank 
on Easter Sunday, March 23rd, 2008, resulting in the confirmed 
deaths of four crew members and the presumed death of a fifth 
crew member. Our prayers go out to the families of those who 
perished: Captain Eric Jacobson, Chief Engineer Daniel Cook, 
the mate, David Silveira, crewman Byron Carrillo, and Fishing 
Master Satoshi Cono of Japan, whose body has not yet been 
recovered.
    Each time we confront one of these terrible tragedies, we 
are reminded of Sir Walter Scott's observation: it is no fish 
you are buying, it is men's lives. But we rejoice that 42 of 
the 47 crew members aboard the ALASKA RANGER were saved through 
the efforts of its sister ship, ALASKA WARRIOR, and by the 
truly amazing rescue operations mounted by the United States 
Coast Guard. During those operations, helicopter crews battled 
severe weather conditions to reach the vessel and rescue 
swimmers braved terrible conditions in the water to lift the 
crew members to safety. I especially commend Aviation Survival 
Technician Third Class Abraham Heller, who voluntarily stayed 
behind in the water in a small life raft to make room for 
additional survivors on the helicopter during that rescue.
    ALASKA RANGER was one among a fleet of approximately 60 
vessels known as head and gut fleet operating in the Gulf of 
Alaska and the Bering Sea. It was participating in an 
alternative compliance and safety agreement created by the 
Coast Guard to enable these ships to continue to operate as 
fish processors while requiring them to make significant and 
overdue safety improvements. This Alternative Compliance 
Program was created specifically because these vessels were too 
old to meet the standards that would otherwise have been 
required of them, including classification by a recognized 
class society and the acquisition of a load line.
    While the development of such a partnership is an effort to 
improve the safety of one part of our Nation's deadliest 
profession, it is an initiative we applaud. It is deeply 
troubling that ALASKA RANGER appears to have been underway with 
major structural and watertight integrity issues that still 
needed to be corrected. This raises serious questions about the 
implementation of this Program, including the quality of the 
inspections of the vessels for compliance with the Program 
standards, extensions of exemptions from safety standards, and 
the lack of sufficient resources dedicated to the Marine Safety 
Program. We hope that Admiral Salerno can shed some light on 
the Alternative Compliance Program and specifically the ALASKA 
RANGER's participation in it.
    As I close, I want to draw our focus to the broader issue 
here, one that is a theme continuing to concern this 
Subcommittee and certainly to the Chairman of the Full 
Committee, Congressman Oberstar, and that is the ability of the 
Coast Guard's Marine Safety Program to effectively and 
efficiently regulate an increasingly complex marine industry 
and to respond to marine casualties. The Inspector General's 
report on COSCO BUSAN paints a picture of a Marine Casualty 
Program in Sector San Francisco that was not ready to respond 
when the bell rang. We await the Inspector General's 
comprehensive examination of the Coast Guard's Marine Casualty 
Program, which is now almost a year overdue. The report cannot 
be issued soon enough.
    While I know that the Commandant has announced important 
changes to the Marine Safety Program, including the creation of 
276 new billets, it will take significant time to train new 
personnel to achieve their qualifications in marine safety. 
Further, I understand that the Coast Guard wants to ensure that 
the Marine Safety Program is structured appropriately within 
the environment of a military service. The needs of that 
military structure should never be allowed to shortchange the 
needs of the regulatory program on which the maritime industry 
and the public count to ensure the safety of maritime 
transportation.
    With that, I now ask that the Speaker of the House--I see 
that she has graciously joined us, thank you, Madam Speaker--
joined us at this Subcommittee of the Coast Guard and Maritime 
Transportation for our hearing today. Although it is the 
Committee practice to limit participation in Committee hearings 
to Members of the Committee, I ask unanimous consent to allow 
the Speaker to participate in today's hearing. Without 
objection, so ordered.
    If the minority leader, Mr. Boehner, wants to participate 
in some future hearing, I am sure that we will extend the same 
courtesy.
    I know that the Speaker is on a very, very tight schedule, 
so, without objection, we will now hear from the Speaker.
    Speaker Pelosi. Thank you very much, Mr. Chairman.
    To you, to Ranking Member LaTourette, thank you for your 
hospitality this morning so that I could express my 
appreciation to your Subcommittee and this Full Committee.
    Thank you, Mr. Coble, for being here this morning to this 
issue of concern to people of our area and important to our 
Country.
    I want to thank Congresswoman Tauscher for being in the 
lead on this issue that affects the San Francisco Bay area as 
she has been over and over again. I know she is a valued Member 
of the Full Committee and I thank her for her attention, as I 
do Mr. Larsen.
    What an honor for the Chairman of the Full Committee to be 
here, an honor for us that he is here. Thank you, Mr. Oberstar, 
for your knowledge, your wisdom, your attention to these 
important issues.
    And to you, Mr. Cummings, Mr. Chairman, thank you so much 
on behalf of the people of the Bay Area for whom the San 
Francisco Bay is a value system in addition to it being an eco 
system. It is something we care deeply about and everyone feels 
very possessive of.
    So when this incident occurred and the Chairman came almost 
immediately to California and held a hearing so that we could 
get the facts--you saw the turnout--hundreds of people turned 
out to see him, to express appreciation to him and to this 
Committee because basically the point is we don't want this to 
happen again. It is not about finger-pointing; it is about how 
do we prevent this from happening again.
    Ms. Richards, thank you for the report from the IG. It was 
something that was called for by this Committee. And I am 
pleased that when I met with the Commandant yesterday, Admiral 
Allen, he concurred with all nine of the Inspector General's 
recommendations. Please give my best wishes to Inspector 
General Skinner and good wishes that his mother is healthy and 
well soon.
    And again to Admiral Salerno, thank you to the Coast Guard, 
as I mentioned, the Commandant, for providing your full 
cooperation in this investigation and for the Coast Guard 
service to our Nation.
    I am going to submit my fuller statement for the record, 
having expressed my appreciation to all concerned and my view 
that what is valuable about this for the people of our area is 
that lessens will be learned, it won't happen again there, and, 
broader than that, that it will be useful in terms of 
preventing it from happening elsewhere in the Country.
    And, with that, I ask unanimous consent to submit my 
statement for the record----
    Mr. Cummings. Without objection, so ordered.
    Speaker Pelosi.--with the deepest appreciation to Chairman 
Cummings for his tremendous leadership. Thank you, Mr. 
Chairman.
    Mr. Cummings. Thank you, Madam Speaker. Thank you.
    We will now hear from the Ranking Member, Mr. LaTourette. 
And I want to thank Mr. LaTourette and the other side for your 
courtesy.
    Mr. LaTourette. Well, thank you very much, Mr. Chairman.
    And welcome, Madam Speaker, to the Subcommittee. If you 
have been on this Committee for a long time and Jimmy Miller 
calls you in the morning and says the Speaker has a tight 
schedule, you follow that and you move forward and do something 
else.
    Mr. Chairman, I want to thank you for having this hearing. 
Five months ago this Subcommittee held a field hearing to 
review the events which resulted in the release of more than 
58,000 gallons of bunker fuel into the San Francisco Bay. The 
spill, as we all know, caused environmental and economic damage 
throughout the region but, thankfully, these impacts were 
decreased by the Coast Guard's rapid response in conjunction 
with its Federal, State, and local partners.
    While the response was successful in removing a sizeable 
percentage of the retrievable oil from the Bay waters, the 
first hearing raised several important questions on how the 
response efforts could have been improved through better 
communication with local officials and the general public.
    I thank the Chairman for calling today's hearing to 
continue our examination of this and other questions, and look 
forward to using today's hearing to identify ways to further 
enhance the Service's response and investigation capabilities.
    The Coast Guard and the National Transportation Safety 
Board have opened an official investigation into the factors 
that caused the COSCO BUSAN to strike the Bay Bridge. It is my 
understanding that this investigation is still underway and we 
will not receive the final report for some months. However, I 
hope the witnesses will provide the Subcommittee with any 
preliminary findings that have been identified and any lessons 
learned that could be used to prevent and better response to 
similar incidents in the future.
    I remain concerned that the Coast Guard's current funding 
and personnel levels may be hampering the Service's 
capabilities to successfully carry out its marine safety 
missions, including oil spill prevention and response in 
maritime casualty investigations. In our previous hearing, Rear 
Admiral Craig Bone testified that while the Coast Guard's 
marine safety personnel were not lacking in technical capacity, 
the Service is not receiving the necessary funding to support 
the numbers of marine inspectors and investigators necessary to 
keep up with the continued expansion of maritime industries and 
port operations in the United States. The President's fiscal 
year 2009 budget is a good first step, but this Subcommittee 
may need to look at additional options to strengthen the Coast 
Guard's performance in these critical missions.
    Lastly, I hope that the witnesses will address the 
perception that the Coast Guard did not adequately communicate 
the severity of the COSCO BUSAN spill to the State and local 
officials early in the response process. I know that the Coast 
Guard did an extensive internal investigation of its response 
and I believe that the Inspector General is currently looking 
at those actions that took place.
    I thank the witnesses for appearing this morning and I look 
forward to your testimony.
    And I thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    I ask unanimous consent that Mrs. Tauscher, a Member of the 
Committee on Transportation and Infrastructure and one who 
played a very, very significant role, as the Speaker has said, 
with regard to our hearing in San Francisco, may sit with the 
Subcommittee today and participate in this hearing. Without 
objection, so ordered.
    I also ask unanimous consent that all Members may have five 
legislative days in which to revise and extend their remarks 
and insert extraneous materials into the hearing record. 
Without objection, so ordered.
    We are very pleased to have Rear Admiral Salerno and Ms. 
Richards. I want to thank both of you for being here. We will 
now hear from Rear Admiral Salerno.

 TESTIMONY OF REAR ADMIRAL BRIAN SALERNO, ASSISTANT COMMANDANT 
  FOR MARINE SAFETY, SECURITY AND STEWARDSHIP, UNITED STATES 
COAST GUARD; AND ANNE RICHARDS, ASSISTANT INSPECTOR GENERAL FOR 
                   AUDITS, HOMELAND SECURITY

    Admiral Salerno. Good morning, Speaker Pelosi, Chairman 
Oberstar, Chairman Cummings, and distinguished Members of the 
Subcommittee. It is my honor to appear before you this morning 
to discuss the motor vessel COSCO BUSAN oil spill which 
occurred on November 7th, 2007, and how the Coast Guard 
conducts is Marine Casualty Investigations Program.
    The Coast Guard has broad responsibilities to ensure the 
safety and security of the Marine Transportation System. In 
executing these responsibilities, the Coast Guard relies upon 
the information that it develops through detailed 
investigations of significant incidents. This information may 
be used to create new standards or update existing standards so 
that we can better prevent recurrences, improve marine safety, 
and protect lives in the marine environment. Equally important 
is sharing the lessons learned from accidents with all maritime 
stakeholders with whom we partner to achieve levels of safety 
that frequently exceed regulatory minimums.
    Our investigation into the COSCO BUSAN incident is ongoing. 
The investigators are currently reviewing the evidence and 
finalizing their conclusions and recommendations. Once 
complete, the release of the report will be closely coordinated 
with the Department of Justice and the NTSB. At the same time, 
as you know, DHS Office of Inspector General and the National 
Transportation Safety Board are also investigating the COSCO 
BUSAN incident, including the Coast Guard's performance. These 
independent reviews are extremely important. We welcome the 
scrutiny and we are committed to ensuring full transparency.
    Protecting lives at sea is at the very core of the Coast 
Guard's identity. Whenever lives are lost, it causes us to look 
very closely at the circumstances so that we can understand how 
it happened and how we can better protect lives in the future. 
We are saddened by the recent sinking of the fish processing 
vessel ALASKA RANGER, with the loss of five lives in the frigid 
waters of the Bering Sea. We in the Coast Guard would also like 
to express our condolences to the families of the lost crewmen.
    We are committed to finding out how it happened. To do so, 
we have convened a formal Marine Board of Investigation. The 
Marine Board is comprised of senior Coast Guard and NTSB 
investigators. Leading the Board is the Chief of the Office of 
Investigations and Casualty Analysis at Coast Guard 
Headquarters, Captain Mike Rand. This investigation is still in 
the early stages of evidence collection and witness interviews. 
Upon completion of its work, the Board will report their 
findings and recommendations in a formal report that will be 
released to the public.
    The COSCO BUSAN oil spill and the sinking of the ALASKA 
RANGER illustrate the challenges faced by Coast Guard 
investigators each day. The diverse nature of incident types, 
the kinds of vessels involved, even the geographic locations 
highlight the importance of having well trained responders and 
investigators who can be on scene quickly, backed up by 
specialized capability from around the Coast Guard that can be 
brought to bear as needed.
    To ensure that the Coast Guard maintains the investigative 
expertise and capacity necessary to meet these challenges, the 
Commandant has devised his plan to enhance marine safety within 
the Coast Guard and has delivered it to Congress in September 
of 2007. I and many others have been working to execute this 
plan. One of the plan's key elements is the addition of 276 
marine inspectors and investigators for fiscal year 2009. The 
number of full-time field investigator billets will increase by 
approximately 50 percent.
    Included in the plan is the establishment of two new 
investigative centers of expertise. The centers will provide 
advanced training on casualty investigations and also on the 
suspension and revocation process. Preventing marine casualties 
is one of the main goals of the Coast Guard and the maritime 
industry. Marine casualties threaten the lives of mariners and 
citizens, and often result in damage to the environment. Marine 
casualties also cause delays in the marine transportation 
system, adversely impacting the flow of domestic and 
international commerce.
    More often than not, marine casualties can be prevented if 
the factors leading to them can be identified, understood, and 
properly address. We would much rather prevent an accident than 
respond to one, which is why the investigative process is so 
integral to our plan to improve marine safety mission execution 
in the Coast Guard.
    Thank you, sir, for the opportunity to testify today, and I 
look forward to your questions.
    Mr. Cummings. Thank you very much.
    We are going to hear from Ms. Richards, but I just wanted 
the Committee to understand that I wanted the witnesses to give 
their opening statements while the Speaker is still here, and 
we will come back to the Committee for any opening statements 
you may have. Thank you very much.
    Ms. Richards, thank you.
    Ms. Richards. Good morning, Chairman Cummings and Members 
of the Subcommittee and Speaker Pelosi. I am Anne Richards, 
Assistant Inspector General for Audits for the Department of 
Homeland Security. I am here today on behalf of the Inspector 
General, Richard Skinner, who unfortunately could not be here 
due to a family emergency.
    Thank you for the opportunity to discuss the Coast Guard's 
response to the November 7th, 2007----
    Mr. Cummings. Ms. Richards, excuse me. Some Members have 
said that they can't hear you. Can you speak just a little 
louder?
    Ms. Richards. Yes, sir.
    Mr. Cummings. Can you pull the mic a little closer to you?
    Ms. Richards. Yes, sir.
    Mr. Cummings. All right, there we go.
    Ms. Richards. Thank you for the opportunity to discuss the 
Coast Guard's response to the November 7th, 2007 allision of 
the motor vessel COSCO BUSAN with the San Francisco-Oakland Bay 
Bridge.
    I would first like to express our appreciation to the Coast 
Guard for their timely and thorough responses to my staff's 
many requests for information and documentation over the past 
90 days. It is fair to say we would not have completed our 
review in such a timely manner without their complete 
cooperation.
    My testimony today will address our primary findings as 
they relate to the actions of the Coast Guard's San Francisco 
Vessel Traffic Service before and immediately after the mishap, 
the Coast Guard's post-accident pollution assessment and marine 
casualty investigation, and the adequacy and execution of the 
San Francisco Area Contingency Plan during the first 24 hours 
after the allision.
    Concerning the San Francisco Vessel Traffic Service, the 
primary question we addressed was whether there was anything 
the Coast Guard's VTS could have done to prevent the mishap. 
Our review determined there was nothing the VTS could 
reasonably have done to prevent the allision. The VTS 
watchstanders followed their operating procedures for 
monitoring the transit of the COSCO BUSAN from the time it left 
Pier 56 until it allided with the San Francisco-Oakland Bay 
Bridge.
    The watchstanders acknowledged the pilot's intention to get 
underway and his intended route, and appropriately notified the 
pilot that visibility was reported to be between one-eighth and 
one-quarter of a mile. The watchstanders also provided the 
COSCO BUSAN with traffic advisories and queries the vessel when 
they became concerned about the vessel's heading. Given the 
current operating procedures and hardware and software 
capabilities of the VTS equipment, there were no additional 
actions the VTS watchstanders could reasonably have taken to 
prevent the allision.
    During our review, we identified two areas for improvement 
in the Coast Guard's VTS program. The Coast Guard does not have 
a national standard operating procedure to guide the actions of 
VTS personnel. For example, the VTS watchstanders on duty 
during the mishap were not tested for drugs and alcohol due to 
a lack of awareness of drug and alcohol testing policies and 
the VTS program manager's practice of conducting such tests 
following a mishap. Administering the drug and alcohol tests 
could have ruled out impairment of the VTS watchstanders as a 
contributing factor to the incident.
    The second area concerns VTS's authority to limit vessel 
movement. The San Francisco VTS has the authority to institute 
and enforce measures to enhance navigation and vessel safety, 
and to protect the marine environment. This authority includes 
managing vessel entry, departure, and movement within a VTS 
area during extreme weather conditions, including periods of 
restricted visibility. However, San Francisco VTS's operational 
procedures currently do not provide watchstanders with the 
criteria necessary for determining what actions to take and 
when to take them.
    To their credit, the Coast Guard and the San Francisco 
Harbor Safety Committee, whose members include the Coast Guard 
and San Francisco Bay pilots, and other State and local 
stakeholders are taking a proactive approach to preventing 
future occurrences of maritime mishaps similar to the COSCO 
BUSAN's allision. The Harbor Safety Committee has formally 
adopted new guidelines for vessels operating in the San 
Francisco Bay during periods of reduced visibility. Speed 
restrictions are also under consideration. The Coast Guard has 
indicated it intends to incorporate the new guidelines into the 
San Francisco VTS standard operating procedures.
    In the area of post-accident pollution assessment and 
marine casualty investigation, the first question pursued was 
whether the Coast Guard's initial report of 142 gallons of oil 
spilled had impacted the timeliness and completeness of the 
response. The second question focused on the conduct of the 
initial post-accident marine casualty investigation.
    The initial spill estimate was inaccurate and should not 
have been made public. The Coast Guard admitted that it erred 
in releasing this information. Under the Area Contingency Plan, 
it was the responsibility of the State of California's Oil 
Spill Prevention and Response Division to estimate the amount 
of oil discharged. OSPR personnel were available, but did not 
have timely transportation to and from the allision site and 
the COSCO BUSAN. This further delayed release of the corrected 
pollution assessment. A more accurate and timely estimate, 
however, would not have altered the response of the Unified 
Command, since the Area Contingency Plan called for assuming a 
worst case scenario and assets were deployed accordingly.
    Concerning the marine casualty investigation, the level of 
training, experience, and qualification of the casualty 
investigators assigned to the COSCO BUSAN investigation was 
generally inadequate. The three Coast Guard investigators 
initially assigned to the incident were not fully qualified. 
This may account for the shortfalls in the marine casualty 
investigation, such as not immediately securing or collecting 
potential evidence such as the charts used by the bridge team, 
the vessel's data recorder, or the shipboard navigational 
systems.
    While the voyage data recorder information was later 
recovered and used by the investigators to recreate the 
vessel's track line before the mishap, the failure to 
independently test shipboard navigation and collision avoidance 
systems, as well as the radar beacons affixed to the Bay 
Bridge, could prevent the Coast Guard and the National 
Transportation Safety Board from identifying all of the 
circumstances and conditions that led to the mishap.
    Finally, we reviewed the adequacy of the San Francisco Area 
Contingency Plan and whether the Coast Guard properly executed 
the Plan during the 24 hours following the mishap. The San 
Francisco Area Contingency Plan is adequate to guide the 
response to an oil spill of this magnitude. However, some 
changes could be made to improve future responses. One area is 
seeking increased attendance by local jurisdictions in area 
committee meetings to update the Plan and participation in 
response exercises. These actions would help ensure better 
preparedness. Also, a location for the incident command post 
was not predesignated in the Plan. Preparedness would be 
improved by identification of a predesignated command post 
location and its use in oil spill response exercises.
    Overall, we were fortunate that the Unified Command guided 
by the San Francisco Area Contingency Plan was successful in 
retrieving the amount of oil spilled from the COSCO BUSAN that 
it did. This effort is a credit to those who led the Unified 
Command, including the Coast Guard, the State of California Oil 
Spill Prevention and Response Division, the responsible party, 
and the myriad of volunteers who were integral to the response 
effort. However, like any other complex activity, there is room 
for improvement.
    The Coast Guard faces many challenges to effectively 
perform its marine safety and maritime homeland security 
missions. The Commandant, Admiral Salerno, and their staff are 
well aware of these challenges and are making progress in 
addressing them. We will continue our oversight of the Coast 
Guard to help facilitate solutions and improve its mission 
readiness.
    Madam Speaker, Mr. Chairman, Members of the Subcommittee, 
this concludes my prepared statement. I will be pleased to 
answer any questions you may have.
    Mr. Cummings. Thank you very much.
    Madam Speaker, again, thank you very, very much. We really 
appreciate your being here. Thank you.
    We are very pleased to be joined by our distinguished 
Chairman of the Full Committee, who has just been a champion 
with regard to all of our Subcommittees, but in particular this 
one. He has just provided very tremendous guidance to me as a 
new Committee Chairman, and I really do appreciate that, 
Chairman Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman, and thank 
you, Madam Speaker, for joining us. It shows your deep 
appreciation of the significance of this accident to the people 
of the Bay Area. Madam Speaker so properly described as having 
a very special affection for the Bay.
    And you, Mr. Chairman, have done a superb job. You have 
been a great student of the issues of the Coast Guard and 
master of the subject matter, as has Commodore LaTourette, who 
similarly took over new responsibilities and has provided great 
bipartisan partnership here. Mr. Coble has long had an interest 
in the Coast Guard as a Coastie, in fact.
    I needn't belabor the issues. I think the Inspector General 
did a splendid job of describing the issues. The Coast Guard 
did a phenomenal job; risked lives in the daring and dangerous 
rescue of the fishermen of the ALASKA RANGER. There could have 
been much greater loss of life without them. But they did a bad 
job of investigating the COSCO BUSAN.
    As we looked into this issue and gathered the facts and 
evaluated the situation, I was astonished that five of the six 
Coast Guard casualty investigators, uniformed personnel, were 
not qualified for the task; they had not completed the basic 
training course to prepare them for this task. Now, the Coast 
Guard did propose a program called the Alternate Compliance and 
Safety Agreement. A good idea; we like that concept. We 
included the establishment of similar program for fishing 
vessels in the Coast Guard authorization bill, which we will 
bring to the House floor next year. I just received 
confirmation from the majority leader that we will have floor 
time to manage this bill.
    But the problems of adequacy of standards, enforcement of 
standards, sufficiency of Coast Guard personnel, sufficiency of 
funding for the Coast Guard to carry out these 
responsibilities, simply underscores the need for the provision 
that we have included in the Coast Guard authorization to 
revamp the safety certification of the responsibilities of the 
Coast Guard. It is a comprehensive proposal. It is not 
everything that I thought we ought to do. I think it is a very 
balanced compromise with what the Coast Guard would like to 
see, at least Commandant Admiral Allen. And we are going to 
chart the Coast Guard on a new course. We have to substantially 
increase the number of personnel.
    When I was elected to Congress in 1974, my first Committee 
assignment was the then Public Works Committee and my 
concurrent Committee assignment was on Merchant Marine and 
Fisheries, which included jurisdiction of the Coast Guard. And 
the first authorization bill that we considered for the Coast 
Guard, Mr. Chairman, we had 39,000 Coast Guard personnel 
authorized. Here we are, 37-some years later, and we have only 
about 4,000 personnel above that number. It is no fault of the 
Coast Guard. It is the fault of the Congress; the fault of 
subsequent administrations.
    We--by we I mean Congress and Executive Branch--signed into 
law 27 new functions and responsibilities for the Coast Guard 
and never funded them adequately, never gave them adequate 
personnel to carry out those responsibilities. So the Coast 
Guard loves to say we are a multi-mission agency and we pride 
ourselves in being able to carry on multiple tasks. Well, sure, 
because you have been forced into that. Heaven forbid that 
there was a different attitude. But semper paratus is not 
enough. We have to give you the wherewithal to be prepared. And 
we are going to do that. We are making a major step in this 
legislation to move the Coast Guard in that direction.
    I will withhold further comment and submit my entire 
statement for the record.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman, for having this 
hearing.
    Good to have you all with us, Admiral and Ms. Richards.
    Mr. Chairman, I think each of us holds the Coast Guard and 
its service to our Nation in the highest regard. So even as we 
ask questions about how to best ensure commercial fishing 
vessel safety in Alaska, none of us should ever forget the 
heroic efforts, as has already been mentioned, of the brave 
Coast Guard men and women in darkness and severe weather to 
rescue the crew members of the ALASKA RANGER.
    Even as we take a critical look at the COSCO BUSAN oil 
spill incident, we should not lose sight of the fact that, as 
the Inspector General has said, the Coast Guard Vessel Traffic 
Service watchstanders carried out their duties as expected and 
couldn't have done anything more to prevent the COSCO BUSAN 
allision with the Bay Bridge.
    We should also not fail to praise the Coast Guard pollution 
prevention personnel for their prompt and effective response to 
protect the environment of the San Francisco Bay.
    And as an aside, Mr. Chairman, I have either read or heard 
that there were two other vessels that were berthed in the 
general vicinity of the COSCO BUSAN that day, and the skippers 
of those two vessels elected not to get underway, for what 
bearing, if any, that might have on the subsequent allision.
    We in the Congress have had a dialogue for some time now, 
Mr. Chairman, on the importance of marine safety, and the last 
time we broached this subject the Commandant announced a number 
of changes that he had directed the Coast Guard to implement 
regarding marine safety. Under the very able leadership of 
Admiral Allen, the men and women of the Coast Guard continue to 
examine and improve upon the Coast Guard's marine safety role, 
and I support these efforts heartily.
    As I mentioned at the previous hearing on this subject, Mr. 
Chairman, despite each of our best efforts, there is always 
room for improvement, and this issue is no exception. I 
continue to believe the Coast Guard is unique because of its 
structure and flexibility. On a daily basis, Coast Guard men 
and women focus on drug interdiction, environmental protection, 
migrant interdiction, port security, search and rescue, 
homeland security, and maritime safety. The list is almost 
endless. Each of these roles, in my opinion, compliments the 
other.
    I continue to support the efforts to provide stakeholders 
an opportunity to voice their concerns, provide constructive 
feedback, and work together to improve the marine safety aspect 
of the Coast Guard. Incidents such as the COSCO BUSAN allision 
and the ALASKA RANGER, while unfortunate, provide an 
opportunity for self-examination by all stakeholders.
    At the same time, Mr. Chairman, I firmly believe that we 
should give the Coast Guard the time, opportunity, and 
resources to improve and expand upon its maritime safety 
efforts.
    Mr. Oberstar is gone, but I wanted to say, Mr. Chairman, 
Mr. Oberstar----
    Mr. Cummings. Yes, he is still here.
    Mr. Coble. Mr. Norm Mineta, known to all of us, always 
addresses me affectionately as Coastie, so you have joined good 
company with Secretary Mineta.
    And I yield back, Mr. Chairman. I thank you.
    Mr. Cummings. I want to thank you, Mr. Coble. Mr. Coble, 
let me just say this just very quickly. What you just said I 
agree with. This Subcommittee has consistently complimented the 
Coast Guard on the many great things that they do. At the same 
time, we are looking with that critical eye so that they can be 
in a better position to do all of those things that you talked 
about. So we are going to continue to work very closely with 
them to try to make sure we get the billets that they need and 
get the resources that they need so that they can be effective 
and efficient.
    Mr. Coble. I thank you for that, Mr. Chairman. Mr. 
Chairman, I have two other hearings; I may have to come and go 
into each of them.
    Mr. Cummings. I understand.
    Mr. Coble. But I thank you for that.
    Mr. Cummings. I understand. Thank you very much.
    Mr. Larsen.
    Mr. Larsen. Mr. Chairman, I have no opening statement.
    Mr. Cummings. All right.
    Ms. Richardson? Mrs. Tauscher.
    Mrs. Tauscher. Thank you very much, Mr. Chairman. I want to 
thank you so much for allowing me to join your Subcommittee 
today and for inviting me to make a brief statement. I would 
also like to, on behalf of my constituents and the entire Bay 
Area delegation, join with the Speaker in thanking you and your 
staff for coming to San Francisco so quickly and playing such a 
leading role in the Speaker's request for a field hearing in 
November. You have shown dedication to oversight of the Coast 
Guard and to protecting our environment from future accidents. 
I thank you very much for your leadership and commitment.
    I would also like to acknowledge the very strong role of 
the Speaker in moving so quickly to get not only the field 
hearing, but her strong commitment to the environment and 
health of the Bay, which is unwavering.
    Today we will examine the Coast Guard's immediate response 
to the COSCO BUSAN accident. The Department of Homeland 
Security Inspector General has concluded that the Coast Guard's 
response was sufficient, but contained critical flaws. These 
flaws include the lack of timely drug and alcohol testing and 
the inexperience of the marine casualty investigators.
    Personally, I was most alarmed by the lack of experienced 
investigators in the San Francisco Bay Area. The IG report 
states, ``The lack of trained experience and qualified marine 
casualty investigators at Sector San Francisco is a major 
concern given the Sector's area of responsibility and the 
volume, type, and size of vessels that transit the Bay each 
year.'' I know that my constituents and the people of the Bay 
Area are pleased to see that the Inspector General's report 
highlighted this and that the Coast Guard is moving quickly to 
make sure that these inadequacies are fixed.
    The San Francisco Bay is one of the busiest harbors in the 
Nation. When coupled with severe weather, like thick fog, it 
becomes a unique and dangerous environment for ships. It is 
unacceptable that we do not have investigators assigned to the 
Bay that do not meet Coast Guard standards, and I very much 
thank Rear Admiral Salerno's comments that this is going to be 
mitigated.
    I would also like to make note of the recent released 
recordings of the conversation between the COSCO BUSAN's pilot 
and captain. These recordings paint a chilling story of the 
moments leading up to the allision. They provide evidence that 
the pilot was completely unaware of the vessel's location and 
unable to read the ship's electronic charts.
    I have introduced a bill that allows the Coast Guard to 
require pilots to carry their own electronic charts. The use of 
portable pilot units is an increasingly common practice which 
will increase awareness and reduce risk. When the Coast Guard 
reauthorization bill comes to the floor, I will seek to add my 
language to this bill, and I expect that the Coast Guard will 
take advantage of this new authority. It is clear that some 
ports, including San Francisco, should require pilots to carry 
their own navigational devices. If the pilot of the COSCO BUSAN 
had carried one on November 7th of 2007, it is possible that 
this accident could have been prevented.
    We have learned many lessons from this incident. I hope 
that the Coast Guard will wake up and take action on this 
lesson before another tragic accident happens.
    Mr. Chairman, thank you again for your leadership and your 
friendship, and I yield back the balance of my time.
    Mr. Cummings. Thank you very much, Mrs. Tauscher.
    Mr. Taylor.
    Mr. Taylor. No, thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Now that we have already heard from you all, we will go 
into our five minutes round.
    Let me ask you this, Admiral Salerno. Recent media reports 
indicate that the pilot on the COSCO BUSAN had a DUI. Do you 
know about that?
    Admiral Salerno. Yes, sir, I am aware of that.
    Mr. Cummings. I understand that a number of assessments 
must be made of an individual's fitness for duty in that 
circumstance. I also understand that during the assessment 
period the individual is ineligible for credential. Was Mr. 
Coda's credentials ever suspended because of his DUI? And under 
what circumstance did the Coast Guard determine he was fit for 
credentials?
    Admiral Salerno. Sir, when Mr. Coda applied to renew his 
license in 1999, he did report that he had a DUI, as required.
    Mr. Cummings. He did or did not?
    Admiral Salerno. He did.
    Mr. Cummings. Okay.
    Admiral Salerno. That fact was noted by the regional 
examination center. At that time, his license was voluntarily 
deposited with the Coast Guard, it was not renewed, pending a 
program of treatment, which Mr. Coda underwent. There is a 
procedure within the Coast Guard whereby an individual who was 
subject of a DUI can go through a treatment program such as AA. 
Mr. Coda completed the AA program in a ten and a half month 
period, at which point cure was established and he was reissued 
his license.
    Mr. Cummings. So if he were to get another DUI, say, since 
1999, is he under an obligation to notify you of that, notify 
the Coast Guard?
    Admiral Salerno. He is under obligation to report any DUIs 
which have occurred since the last issuance of his license. The 
license is renewed in five year intervals, so upon application 
for renewal he is obligated by regulation to report that.
    Mr. Cummings. So someone could have their license renewed--
let's say they have it renewed. They can literally go out two 
weeks later, be convicted of a DUI--or let's say three months 
later, because it takes them a little while to get to trial, 
and he would not be obligated to report that until four years 
and nine months later? Is that the case?
    Admiral Salerno. That is the case, sir. That is the way the 
regulations have been established.
    Mr. Cummings. Do you think that is right? It seems like it 
goes against the very purpose of--it seems like it just goes 
against what you are trying to accomplish here. I am not asking 
you to defend the regulations, I am just asking how you feel 
about that. I am just curious.
    Admiral Salerno. Yes, sir, I understand the question and 
the concern, and it does concern me that that could happen. 
Unfortunately, the way the regulations are constructed, that is 
the system we have.
    Mr. Cummings. And might it make sense that even if a person 
has to report--it seems to me if a person has to report, in 
other words, to report immediately, for example, a DUI, they 
could get some kind of treatment immediately and still be in a 
position to safely carry out their job. But when you go for a 
four-year-plus period, a lot of things can happen during those 
four years. I guess that is my point. Somebody will need to 
take a look at that for the safety of all, including the 
employee.
    Admiral Salerno. Yes, sir. I would add, though, that as a 
licenseholder, a pilot or any licensed individual is required 
to participate in a random drug screening program, so that 
there are some controls along the way. The marine employer also 
has responsibilities, if somebody is exhibiting signs of 
intoxication or not capable of performing their duties, to take 
some action. So it is not totally left to that five-year 
interval; however, from a regulatory standpoint, there is 
nothing that requires somebody to put themselves on report.
    Mr. Cummings. All right, let me go to you, Inspector 
Richards. The Subcommittee and Chairman Oberstar have obviously 
had deep concerns about the Coast Guard's Marine Safety 
Program, and I am deeply disturbed by the findings of the 
Inspector General's report that five of the six individuals 
assigned as marine casualty investigators in Sector San 
Francisco were unqualified for these positions. Similarly, I am 
disturbed to hear that all three of the investigators who 
responded to the COSCO BUSAN were unqualified as marine 
casualty investigating officers. Therefore, I want to begin by 
just asking you a few questions examining the issue.
    Your report indicates that five of the six individuals 
assigned to marine casualty billets were not qualified for 
these positions. Can you explain what the qualification 
standards are and what qualifications these individuals 
actually had? I am also curious as to any of these five 
unqualified individuals were in the marine casualty 
investigative billets in San Francisco completed even the basic 
investigating officer training course at the Coast Guard's 
training facility in Yorktown. Of course, my concern about 
that, if we send somebody out to investigate, for example, in 
Baltimore, a homicide and they have no training in homicide, it 
seems like we have got major problems. I am just curious.
    Ms. Richards. Yes, sir. The three investigators who 
reported to the COSCO BUSAN that morning had not completed all 
the qualifications as marine casualty investigators. Of the 
three, one had completed the basic training course at Yorktown, 
the other two had not.
    Mr. Cummings. How significant is that?
    Ms. Richards. It is a basic training course. It should be 
early in their training as marine casualty investigators. As to 
the total significance, I would have to plead that I don't have 
the details with me and get back to you on that.
    Mr. Cummings. Please do.
    Ms. Richards. The qualifications for becoming a marine 
casualty investigator include prerequisite training in a number 
of areas as a hull or machinery inspector and a small vessel 
inspector, or as a harbor safety officer or facility safety 
officer or as a boarding officer. They also include on-the-job 
training, which involves completing specific tasks involved in 
a marine casualty investigation, as well as the basic training 
course. Each of the three marine casualty investigators who 
were on the COSCO BUSAN that morning were in the process of 
meeting the pre-qualifications to become a qualified marine 
casualty investigator.
    Mr. Cummings. Admiral Salerno, would you comment on that? 
Chairman Oberstar talked about the Guard being stretched. Is 
this part of that problem, that we have got people going out 
doing investigations who may not be qualified to do them; 
therefore, the integrity of the investigation being impaired? I 
am just curious.
    Admiral Salerno. Well, sir, let me echo your sentiment 
about being disturbed about what was in the IG report.
    Mr. Cummings. First of all, do you think it is accurate?
    Admiral Salerno. It is accurate.
    Mr. Cummings. All right.
    Admiral Salerno. And disturbing. I am very disturbed by it. 
It should not have happened. It conflicts with established 
doctrine within the Coast Guard that marine casualty 
investigations be conducted by qualified individuals. There are 
trainees, obviously, and as we rotate people and transfers, but 
as they conduct their training activities, it is to be done 
under the direction of a qualified investigator. That did not 
occur here. I see that as my responsibility to fix, and I will 
fix that.
    Mr. Cummings. And how are you going to go about doing that?
    Admiral Salerno. Sir, I am going to re-enforce established 
doctrine. I am going to communicate that fact to our field 
commanders and establish a program that if they do not have the 
resources they need to conduct an investigation, that they seek 
them out from other sources within the Coast Guard.
    Mr. Cummings. I want you to understand that part of the 
problem here--I mean, this is not just limited to an incident 
such as this; it goes even further. As you well know, I have a 
tremendous concern about the administrative law judge system. 
Let me tell you, if we don't have the right people 
investigating matters, it seems to me that it basically goes 
against the integrity of any kind of evidence that might be 
presented.
    If you don't have the right people doing the right 
investigations--and it is not a pointing finger kind of thing, 
but I do want us to learn from what has happened so that we can 
correct it. And we have got mariners who are complaining that 
they are not being treated fairly, and then I hear about--as I 
tell my staff, when I see a problem, I don't just worry about 
the problem, I worry about what I don't see. So I am just 
concerned about that and I would really like to--your remedy, 
has it been put in writing?
    Admiral Salerno. It will be very soon, sir.
    Mr. Cummings. What is very soon?
    Admiral Salerno. I intend to put something in writing 
within the next week or two.
    Mr. Cummings. You plan? Will you get us something within 
two weeks, please?
    Admiral Salerno. Yes, sir, I will share that with you.
    Mr. Cummings. Is two weeks enough? I don't want to hold you 
to something you can't do.
    Admiral Salerno. Yes, sir, two weeks is enough time.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T1945.013
    
    [GRAPHIC] [TIFF OMITTED] T1945.014
    
    Mr. Cummings. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Before I talk about the COSCO BUSAN, Admiral, I just want 
to ask you about the Oil Spill Liability Trust Fund. The Trust 
Fund, as you know, provides funding to pay for the cost of oil 
spills, not only to reimburse for response activities, but to 
pay for natural resource damages. The information we have is 
that the Fund was estimated to be approximately $903 million at 
the end of fiscal year 2008.
    Three questions. Are the amounts in the Fund sufficient to 
deal with what they are required to deal with in anticipation 
of a major catastrophic oil spill in U.S. waters? Have the 
incidents of Hurricanes Rita and Katrina impacted the fund? 
Have any claims been filed as a result of that and how long do 
people have to file a claim with the Coast Guard or the EPA?
    Admiral Salerno. Sir, if you would permit me, I would like 
to answer that for the record. I don't have the detailed 
information before me, but I will get back to you with those 
specific numbers.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.015
    
    Mr. LaTourette. Okay. I appreciate that.
    To the COSCO BUSAN, just a couple of things, Ms. Richards. 
As I understood your testimony, it was the conclusion of the 
Inspector General that the VTS performed its function as it was 
required to perform its function, but you found that drug 
testing and alcohol testing might be helpful in the future. But 
there is no indication in your report that anybody at the VTS 
was drunk or on drugs, right? They did the job well, but, going 
forward, it would be nice to test them for drugs and alcohol?
    Ms. Richards. That is correct.
    Mr. LaTourette. Okay.
    Ms. Richards. We, of course, were not there that day. We 
did review the actions of the watchstanders and concluded that 
they had operated in accordance with their procedures.
    Mr. LaTourette. Similarly, the Coast Guard's early release 
of 142 gallons, as opposed to the resultant 58,000 gallons, 
although that was cited as an error in your report because the 
plan in place called for a worst case scenario, nothing bad 
happened as a result of 142 gallons being in the press release, 
as opposed to the actual, because people were prepared for 
this, right?
    Ms. Richards. That is correct. The Area Contingency Plan 
was designed to deploy a response to a worst case scenario, so 
the public release of the inaccurate estimate did not affect 
the response.
    Mr. LaTourette. And Mr. Cummings, the Chairman, asked a 
little bit about the pilot's previous DUI. Admiral, was the 
pilot following the collision subjected to a drug screen?
    Admiral Salerno. Yes, sir, he was tested by the pilot's 
association, as required for marine employers.
    Mr. LaTourette. And are you aware of the results of that?
    Admiral Salerno. My understanding is the results were 
negative.
    Mr. LaTourette. And did that screen for not only drugs, but 
alcohol as well?
    Admiral Salerno. Yes, sir.
    Mr. LaTourette. Okay.
    Now, the VTS that is mentioned in the Inspector General's 
report, the Vehicle Traffic Service, a lot of people, I think, 
have the view that it is like a TRACON or an air traffic 
controller that is directing ships within the harbor, but that 
is not the VTS's function, is it, Admiral?
    Admiral Salerno. No, there are substantial differences 
between VTS and an air traffic control system. VTS is an 
advisory system; it does not give course and rudder directions 
to the ship, it advises the ship of conditions that are present 
in the harbor, the presence of other traffic and so forth so 
that the bridge crew has adequate awareness of other activity 
in the harbor.
    Mr. LaTourette. But the responsibility for driving the 
ship, if you will, is that of the pilot?
    Admiral Salerno. That is a responsibility of the pilot and 
the master. There is a shared responsibility on the ship.
    Mr. LaTourette. Obviously, the most alarming thing to a lot 
of us is this training issue, and you have talked about that. 
And I heard Ms. Richards talk about what the training was or 
what some pieces of it were. I am reminded, when I was in 
college, I was four hours short, and the four hours I was short 
was medieval English literature, which I don't think prevented 
me from launching a career later in life. I have heard that 
there is basic training, there are hours you have to go out and 
be experienced. Were there pieces, specific--what were these 
people missing, first of all? And, second of all, whatever they 
were missing, did that compromise the investigation that 
followed after the collision of the COSCO BUSAN?
    Admiral Salerno. There are a number of prerequisite 
requirements, as Ms. Richards mentioned, marine safety specific 
requirements that are needed for all investigators. There is a 
system of training that includes on-the-job training, 
performance qualification system where specific tasks need to 
be performed under the direction of a qualified investigator, 
and there is resident training at our training center in 
Yorktown, Virginia.
    All of those elements need to be completed for someone to 
be designated a fully qualified investigator. Each of these 
investigators had completed portions of the training program. 
The individual who looked at the radar system on the bridge, 
for example, had extensive experience at sea during his Coast 
Guard career, eight or nine years; he knew what he was looking 
at.
    But were there failures? Yes, there were. The information 
in the voyage data recorder that should have been secured 
immediately was not, as Ms. Richards pointed out. So that is a 
failure and illustrates the reason why we need fully qualified 
investigators to perform these tasks.
    Mr. LaTourette. Aside from that feature, have you 
identified any other failures in the investigation?
    Admiral Salerno. That was the most significant failure that 
I have been advised of.
    Mr. LaTourette. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Oberstar. Ms. Richards, two years ago, actually, two 
years ago December, our Committee asked the IG to undertake a 
marine casualty report inquiry and provide a report to the 
Committee. It is way overdue. Can we expect to have this 
document by the end of next week?
    Ms. Richards. The IG is committed to make completing that 
report a top priority. It, unfortunately, was a resource issue. 
When the request to complete a review of the allision of the 
COSCO BUSAN came up, we needed to shift resources. At this 
point, the IG has committed to make that his top priority.
    Mr. Oberstar. We have a hearing in another Subcommittee of 
this Committee on Transportation and Infrastructure, the 
Aviation Subcommittee, on reauthorization of the National 
Transportation Safety Board, and I would like to have that 
document available for us in time for that hearing, which is on 
the 23rd of April.
    Ms. Richards. Again, I can repeat that the Inspector 
General has committed to make this a top priority, and I will 
convey your concerns directly to him.
    Mr. Oberstar. Thank you.
    Admiral Salerno, five of the six Coast Guard casualty 
investigators, uniformed personnel, as I said earlier, were not 
qualified for the task--you admitted to that--have not 
completed the basic training course. How is it that the Coast 
Guard assignment officers were able to assign these personnel 
to this task? Did they not have other qualified people to 
assign? Did they know these people had not completed the course 
work, were not prepared to undertake this investigation with 
the skills and experience needed?
    Admiral Salerno. Sir, I don't have an explanation for that. 
The way the process is supposed to work is that qualified 
people are placed into duty billets. We do have quite a 
significant number of people who complete the training program 
every year; there are four courses at Yorktown, about 25 
persons per course. About 100 people a year go through this 
course. So there is throughput through the program. At this 
point, today, I can't explain to you why a qualified person was 
not assigned to the unit, but I will look into that, sir, and 
get back to you.
    Mr. Oberstar. It is very troubling to me, particularly in 
light of our hearing last week in the Full Committee on the 
aviation safety investigation and oversight of maintenance in 
the airline industry. That follows on several years earlier, 
when we found that the Federal Railroad Administration was 
engaging in an operator-friendly arrangement with the 
railroads, called the Rail Advisory Safety Committee, where 
they sat down with the railroads management and said tell us 
what you are doing and we will see whether you have some 
problems; maybe we can look the other way and let you fix them, 
instead of saying this is an enforcement activity; you have 
failed to inspect your journals on your box cars properly, you 
failed to inspect switches and rails properly, you failed to 
fix them properly; now, get out there or we impose a fine on 
you or worse. I think hearings conducted in this very hearing 
room caused the FRA to turn around. Now we find the FAA being 
operator-friendly, cozy, treating the airlines as customers.
    Now we find that the Coast Guard, the preeminent safety 
agency, isn't fully prepared, find shortcomings in a number of 
areas, and particularly in this investigation. The IG's report 
said the investigating team did not secure what we call in 
investigations--and I have done this for 25-plus years--
perishable information--the radar printouts, the voyage data 
recorder--to ensure that drug testing, as required, was 
completed on the crew members, and they failed to conduct drug 
and alcohol tests on the VTS watchstanders. What is happening 
here? Is this a shortage of personnel, inadequate numbers of 
people? Is it a laxity in your training in oversight and 
preparation?
    Admiral Salerno. Certainly, sir, turnover of people 
contributes to the issue, which is why we, in our Marine Safety 
Improvement Plan, do fully intend to institute a greater number 
of civilian inspectors and investigators so that there is 
always that stability at every port in the Country. There will 
be a cadre of people who do not rotate and there will always be 
a trained person or persons available in every port. So I see 
that as part of the way ahead and part of the solution to the 
problem. There are other issues, obviously, with assignments, 
as you just mentioned, that we need to address as well, to make 
sure that qualified people fill duty billets.
    Mr. Oberstar. Well, you answered rightly. Turnover of 
personnel and inadequate numbers. Not only that, but inadequate 
numbers of trained personnel. And one of the key elements of 
our Coast Guard so-called reform updating provisions in the 
authorization bill is to establish a career civilian staff 
under the management of a uniformed Coast Guard officer who has 
skills and qualifications and is trained, is completely 
adequate to carry out the responsibility, who has at least the 
skills and qualifications of the ABS standards, and as the 
Corps of Engineers does, have a uniformed officer in charge of 
the district engineer unit and a career staff of trained, 
skilled personnel who have continuity so there isn't turnover, 
so that you don't have persons undertaking work who are not 
qualified for the job. That is a cornerstone of the provisions 
we are going to bring to the House floor next week.
    Mr. Chairman, I will withhold further questions at this 
time because other Members want to.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Admiral, I was at a Judiciary hearing back and forth. You 
may have been asked this, but I don't think you have. What 
steps has the Coast Guard taken since the COSCO BUSAN oil 
spill?
    Admiral Salerno. Sir, as you mentioned, or as has been 
discussed, there have been a number of investigations, 
including what we call an incident-specific preparedness 
review, which looked at the actual response by the Coast Guard 
and its partner agencies and the private sector, and there are 
a number of lessons that have come out of that. We are sharing 
those lessons with all of our field units so that they can 
upgrade their Contingency Response Plans in ports around the 
Country.
    About a month or so after the incident, we issued an All 
Coast, a message that went to all units in the Coast Guard 
listing some very quick lessons learned that addressed issues 
such as incorporation of volunteers, actions to be taken by 
investigating officers, and so forth, that were lessons from 
the COSCO BUSAN.
    As we address some of these other issues regarding the 
training of investigators, more needs to be done, but the 
lessons that come out of the IG's report, we concur with those 
and we will take the action that is indicated.
    Mr. Coble. Thank you, sir. There has been a great deal of 
discussion before this Committee and the Subcommittee regarding 
the Coast Guard's Marine Safety Program. During this dialogue, 
what has the Coast Guard done to improve the Marine Safety 
Program?
    Admiral Salerno. Sir, the Commandant has put together a 
plan of action to improve the Marine Safety Program. It does 
include a provision in fiscal year 2009 to increase the numbers 
of inspectors and investigators by 276. We will be establishing 
centers of expertise that will assist in the training of our 
inspectors and investigators. There is a greater emphasis on 
outreach to the marine community so that we understand where 
problems are emerging and we can resolve problems in a more 
expeditious way. There is a long list sir. I can provide you 
with each item in our----
    Mr. Coble. I would like to have that.
    Admiral Salerno. Yes, sir.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.016
    
    [GRAPHIC] [TIFF OMITTED] T1945.017
    
    Mr. Coble. And finally, Mr. Chairman, let me ask you this, 
Admiral. Do vessel traffic centers have the authority to direct 
and/or manage the movement of vessels in their respective 
regions?
    Admiral Salerno. Sir, a VTS does have the authority to 
direct a vessel to take specific action, yes, sir, we do have 
that authority. Typically, it is given in the form of a desired 
outcome. In other words, a vessel may be directed to proceed to 
a certain anchorage and anchor. What it would not do is give 
the course to take in going to that anchorage. But we do have 
that directive authority, yes, sir.
    Mr. Coble. Thank you.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I actually got here after some 
other Members. If you don't mind, I will waive my time and 
turn.
    Mr. Cummings. Very well.
    Mr. Larsen
    Mr. Larsen. Thank you, Mr. Chairman. As you might imagine, 
I probably have a few more questions about ALASKA RANGER than I 
do COSCO BUSAN, but I also note I will be meeting with Coast 
Guard folks about noon to discuss some of the other issues with 
ALASKA RANGER.
    But while I do have you all here, I will ask a few 
questions, if I might, Admiral. Regarding the ACSA program and 
specifically with the requirements that vessels enrolled in the 
ACSA meet the requirements sometime in early January. But as I 
understand, the ALASKA RANGER was not one of those vessels in 
the ACSA program that had met all the requirements?
    Admiral Salerno. Sir, the ALASKA RANGER was in fact 
enrolled in the ACSA program. There were still a number of 
outstanding requirements that needed to be completed. That was 
to done by January 1st. The vessel had been examined in dry 
dock in Japan by qualified Coast Guard inspectors. A long list 
of requirements were issued, including watertight integrity 
items, watertight doors, stability information, and so forth. 
When the vessel returned to the United States, it was examined 
again in Dutch Harbor.
    Most of those requirements were cleared; there were still a 
few that remained outstanding. In February, the Coast Guard 
sent a letter to the owner requesting a status of those 
outstanding items and expected a return within 30 days of what 
is the status and what is your plan to complete them. That is, 
unfortunately, about the time frame when the vessel was lost.
    Mr. Larsen. I was just reading through the agreement from 
June 2006 that Districts 13 and 17 prepared, or it might be a 
MOU or MOA. Was there any requirement or any lever the Coast 
Guard had to prevent a boat from going out that had not 
completed the requirements of the ACSA?
    Admiral Salerno. It is important to keep in mind, sir, that 
this is an uninspected vessel, essentially.
    Mr. Larsen. Right.
    Admiral Salerno. And although it is a head and gut vessel, 
as the Chairman mentioned, it was conducting activities on 
board that made it more of a processor, so we created this 
program so that they can continue to operate as a processor. We 
could have been very inflexible and said January 1st, you 
comply or you cannot operate. What that would have done, 
realistically, is just force them to operate as a fishing boat, 
which they could have done legally, without any requirement to 
upgrade the safety of the vessel. So what this program does in 
a cooperative way is help elevate the level of safety by 
forcing them to----
    Mr. Larsen. Don't confuse my questions with being critical 
of the ACSA. I was just asking specifically if there was any 
mechanisms within the agreement to implement the ACSA to 
prevent a boat from going out that had not fully met the 
requirements.
    Admiral Salerno. If a vessel were to present an immediate 
hazard to its crew or to the environment, yes, the Coast Guard 
can take Captain of the Port action and hold it to the pier 
until those corrections are made.
    Mr. Larsen. Whether they are a part of this program or any 
other program?
    Admiral Salerno. That is correct.
    Mr. Larsen. So it went to Dutch Harbor but not all of the 
items on the work list defined in Japan had been resolved, but 
many of them had?
    Admiral Salerno. That is correct, yes, sir.
    Mr. Larsen. What were the outstanding issues, do you 
recall?
    Admiral Salerno. As I recall, there was some work on an 
interior bulkhead in the forward part of the vessel. To my 
knowledge, based on the testimony received so far in the Marine 
Board, none of the outstanding items appeared to be linked to 
the flooding of the vessel, which occurred in the after 
portions of the vessel.
    Mr. Larsen. And I understand the investigation is ongoing.
    Admiral Salerno. That is correct, yes, sir.
    Mr. Larsen. And your assertion might change, depending on 
further investigation for all we know.
    Admiral Salerno. Yes, sir. New information will be 
developed in the next phase of the Marine Board's activities, 
which will occur in Seattle.
    Mr. Larsen. Right, right. And the ACSA program is developed 
specifically for this region?
    Admiral Salerno. Yes, sir, it is. It was an agreement 
between District 13, based in Seattle, District 17 in Alaska, 
and the fleet operators themselves. It is, as the Chairman 
mentioned, about 60 vessels that operate in this fleet.
    Mr. Larsen. Right. Did you not receive a response back from 
the vessel owner based on the Dutch Harbor evaluation?
    Admiral Salerno. I believe we did receive a letter back 
from the company that listed all of the vessels that they owned 
that were in this program and the status of the outstanding 
requirements and when they expected to complete them.
    Mr. Larsen. And how many were outstanding? I am sorry, how 
many vessels had outstanding issues, do you recall that?
    Admiral Salerno. For this particular company, sir, or 
overall?
    Mr. Larsen. Yes.
    Admiral Salerno. I don't recall for this particular 
company. There were several.
    Mr. Larsen. There were several. Okay. I see my time is up. 
I appreciate it. I have further questions and I will be meeting 
with some of your folks at noon, and we can talk through some 
of these then.
    Admiral Salerno. Yes, sir. Overall, about a little over 30 
vessels still needed to complete the ASCS program.
    Mr. Cummings. Thank you very much.
    For the Committee's information, we have got about six 
minutes left before the vote expires. We are going to hear from 
Ms. Richardson and then we are going to take a recess for the 
three votes, and we will be back in about 40 minutes.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. I will try and be 
brief and cut it down to three questions.
    Ms. Richards, you mentioned one of the problems is the lack 
of a national standard operating procedure; the Coast Guard 
does not have a VTS national standard operating procedure. Do 
you foresee any objections or barriers of why we couldn't 
establish this?
    Ms. Richards. No. The Coast Guard has replied to us that 
they are in the process of developing the national standard 
operating procedures.
    Ms. Richardson. And, Admiral, are you aware of when we 
expect that to be implemented?
    Admiral Salerno. It is in clearance within Coast Guard 
Headquarters. I don't have a firm date for you, but I can 
provide that.
    Ms. Richardson. Okay, if you could provide that to the 
Committee.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.018
    
    Ms. Richardson. My second question also to you, Admiral, 
the Inspector General's Office recommended in its report that 
the Coast Guard assessed the possibility of either employing 
experts who can quantify the size of an oil spill or 
potentially upgrading the training provided to pollution 
investigators to enable them to assess the size of the spill. 
Can you comment on this recommendation and can you explain why 
pollution investigators do not already receive the training 
they need to employ multiple techniques for assessing the size 
of an oil spill?
    Admiral Salerno. Yes. The pollution investigators actually 
perform a very distinct subset of the overall investigation 
process. What they are out there to do is establish the 
elements of a violation. There is a strict liability provision 
in the law, and what they do is establish that there is oil in 
the water, it is a harmful quantity, and so forth. Typically, 
for assessing the quantity, there would be a qualified marine 
inspector or qualified investigator who is more familiar with 
ship systems, how to read ship's plans and so forth, who can 
work with the ship's crew and make that determination. The 
critical point here is that the response is not held up pending 
an assessment of what the spill quantity was. We assume that 
the tank had full contents and we base our response on that. So 
it is something that is not critical to the response effort; it 
is something that can be refined later.
    Ms. Richardson. Well, with all due respect, Admiral, I was 
at the original hearing, and if I am not mistaken, it was 
originally reported that the spill was of a much smaller size; 
and then when other people actually got out there, they saw it 
was significantly larger. That is, I would disagree with you, 
very important. It may not be important to you, but to 
environmentalists and people who are left to clean up the 
beaches and the fowls and everything that we lost, by not 
having a clear understanding of the size is a critical point.
    So I am down to now two minutes and we have votes, but I 
would ask the Chairman if you would please provide to this 
Committee--I think it is a legitimate concern, and if it is not 
your responsibility to determine the appropriate size, then 
someone else needs to be assigned to do that. And there was a 
recommendation for you of including--and I already read it very 
briefly to you of who that could be.
    Admiral Salerno. If I might, ma'am, the actual response 
capabilities that were deployed within hours was vastly in 
excess of that initial false estimate; the rated capacity of 
the equipment was in the 50,000 gallon range that was deployed 
that very day.
    Ms. Richardson. Okay. So will you work with our Chairman to 
get us that information?
    Admiral Salerno. Yes, ma'am.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.019
    
    Ms. Richardson. Okay.
    My last question is, Admiral, can you comment on whether 
San Francisco's VTS will receive the upgrade to the PAWSS 
tracking system, and will all other VTS centers, such as 
Seattle, not currently utilizing this system also receive the 
upgrade?
    Admiral Salerno. The two systems that the Coast Guard 
operates, two operating systems, are in fact compatible. There 
have been upgrades already to the system in San Francisco, 
which is the older system. Those upgrades actually bring it up 
to the same level as the PAWSS system, so essentially, 
regardless of which system operators are using, they are 
receiving the same data.
    Ms. Richardson. Okay. Admiral, I am not going to tell you 
how to do your job, however, I think this Committee deserves to 
understand what is the difference between the two and why you 
are using that one, because obviously other people are 
recommending this other system. And our upgraded systems done 
throughout all the systems, which was my last question?
    Admiral Salerno. Yes, all of the centers that the Coast 
Guard operates are operating to the same standard, but they are 
employing different operating systems, essentially two 
different operating systems. But they achieve the same result.
    Ms. Richardson. Okay.
    Mr. Chairman, I know we are tight on votes, but I think 
that I don't know whether it is Ms. Richards or through the 
Admiral, but I think this is of much discussion, the fact of 
using different systems are all VT, are all of the centers 
upgraded. I am not getting a clear answer from you that they 
are all sufficiently to the level that has been recommended 
based upon this accident.
    Mr. Cummings. To the gentlelady, when we come back, I will 
follow up on those questions, because I have some concerns 
myself. I want to see what kind of commitments we can get, if 
they are appropriate, that is, so that we can move this along.
    And I want to clear that up, Admiral, when we come back.
    We are going to be, I said, 40 minutes, but it looks like 
it is going to be probably closer to 25 to 30. That is just an 
estimate, but as soon as we can come back, we will be back. All 
right? Thank you. We stand in recess.
    [Recess.]
    Mr. Cummings. The hearing is called back into order. I want 
to apologize to you all. We had a new Member being sworn in 
that we didn't realize--we did not know that--a new Member 
replacing Mr. Lantos. So it took a lot longer than we had 
anticipated, and we do apologize.
    We will proceed with our questions, and we left off with 
Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral, in the aftermath of the Exxon Valdez, Congress 
passed the Oil Pollution Act in 1990, and I don't know if it 
was a direct result of that, but one of the results of that was 
the starting of an outfit called the MSRC, Marine Spill 
Recovery Corporation. I am curious, in reading the transcript 
here, when they said that there was no one available to give a 
good assessment of the volume of the spill, I am looking at the 
MSRC website and they apparently have a branch in San 
Francisco. At what point were they involved, if at all, and to 
what point does the Coast Guard now rely on the private sector 
for things that they used to do in-house?
    The second thing, for the record, it doesn't appear that 
you have it today, but I have visited, many years ago, the 
Vessel Traffic System in San Francisco--and I am talking in the 
1970s--and I thought it was pretty impressive then. So I am 
curious when I read again in the transcript--and I would hope 
that you would correct it if the staff got it wrong--when they 
said that you weren't getting instantaneous reads of the speed 
and direction of the vessel, because the way I remember it from 
way back then is that it was pretty impressive; it looked like 
the radar you would see on the bridge of any ship anywhere in 
the world.
    I guess the third question would be if that is the case, at 
what point, if any, are your monitors involved in saying, 
vessel whatever, it appears you are getting caught in the 
current, or are you aware that you are heading for the pilots 
of the bridge? I think it would be very important for you to 
walk the Committee through that because we, as a Nation, have 
spent a considerable amount of money making that Vessel Traffic 
System available and for me, as a taxpayer, it doesn't seem to 
make any sense unless it is actually going to be involved in 
vessel safety. If it is there only to record a mistake in 
process, we really haven't accomplished a whole lot.
    So these three things I hope you would address.
    Admiral Salerno. Yes, sir. First to the MSRC and the Oil 
Pollution Act of 1990. As I am sure you recall, sir, the 
provisions of the Act require that vessel owners contract with 
oil spill response organizations, OSROs.
    Mr. Taylor. Okay, when you say vessel owners, walk me 
through this. Does that mean every vessel that transits 
American waters or is that only people in the business of 
transporting petroleum or chemicals as a primary cargo? Does 
COSCO contribute to this?
    Admiral Salerno. They do. If you will bear with me for a 
second, sir. The Oil Pollution Act originally pertained to tank 
vessels.
    Mr. Taylor. Okay.
    Admiral Salerno. There was a law passed a few years ago 
which required non-tank vessels essentially to develop response 
plans with essentially the same requirements, that they 
contract for response resources. The COSCO BUSAN in fact had 
done that and MSRC, I believe, was their designated provider of 
those resources. They did respond----
    Mr. Taylor. How quickly?
    Admiral Salerno. Very quickly, within two hours. In fact, I 
think it was shorter than that. I can get you the exact time, 
but it was very quick response.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.020
    
    Admiral Salerno. There was also another major oil spill 
response organization, the National Response Corporation, one 
of the major companies in this business. They also responded. 
So there was quite a bit of capability deployed at the owner's 
expense very early in this response, so it was very, very 
aggressive response early.
    We do hold the responsible party, in this case the vessel, 
to be the primary responder to contract for those resources and 
to get them on scene, and our Federal on-scene coordinator, the 
Coast Guard captain of the port typically, is the one who makes 
sure that they are acting responsibly under the law. So those 
things did occur.
    Mr. Taylor. Okay. As a matter of curiosity, did the initial 
assessment of the spill, of the quantity of the spill, did that 
come from inside the Coast Guard or did that come from MSRC or 
the other outfit?
    Admiral Salerno. The initial quantity was reported by our 
pollution investigator on-scene who obtained those numbers from 
the ship's crew.
    Mr. Taylor. Okay.
    Admiral Salerno. But as mentioned earlier, that had no 
bearing on the magnitude of the response that was mounted.
    Sir, your other question on Vessel Traffic Services, the 
time delay I believe you are referring to is really just the 
antenna sweep. You know, the antenna rotates; it takes a few 
seconds to make that sweep. So the picture that the VTS 
operator views typically has no more than a four second refresh 
rate, so that is fairly instantaneous given the speed of 
movement of ships through a harbor.
    The system in place in San Francisco was mid-1990s vintage. 
We call that CGVTS. That is just one of two systems that are 
operating. The two systems are comparable in terms of the 
capabilities that they present. They each can be upgraded as 
additional software becomes available. There is a planned 
upgrade for the San Francisco VTS which would allow greater 
resolution on the electronic chart display within the VTS 
center.
    Mr. Taylor. But Admiral, to the point, if all your 
watchstander is going to do is sit there and be a witness 
electronically to a collision, then why are we, as a Nation, 
spending all that money? I have got to believe that part of the 
reason for all of this is that someone is there, particularly 
in bad weather, to make a vessel aware of a dangerous 
situation.
    Admiral Salerno. You are correct, sir. That is the purpose 
of the VTS. It is not to be a witness, it is to provide advice.
    Mr. Taylor. Okay. So what did your watchstander do that 
morning?
    Admiral Salerno. Our watchstander contacted the vessel; it 
was tracking its movements through the harbor; talked to the 
pilot; confirmed the pilot's intentions. The pilot indicated 
that, yes, I intend to go through this span of the bridge. 
There was that confirmation that took place, so there was 
dialogue. The reason that call was initiated is it didn't quite 
look right to the VTS operator. He was paying attention to the 
movement and that is what initiated that call. And when he 
received the confirmation from the pilot, the assumption was 
that he was about to make a turn.
    Mr. Taylor. I am curious, given the enormous tidal speed 
and direction within San Francisco Bay, particularly, I would 
presume, near the bridge even more so, do your electronic 
tracking devices co-mingle that information with what is on the 
radar? Could your watchstander have been in a position to say, 
hey, skipper, you are about to go into a five knot current that 
is dragging you straight toward that bridge abutment?
    Admiral Salerno. Sir, I am not sure the VTS has the 
capability to track the currents electronically. There is 
current information available. I can get back to you on the 
specific capabilities of that system. What the VTS operator 
will look at and see is the actual course made good over the 
ground. So they will track that.
    Mr. Taylor. Mr. Chairman, just one last question.
    Given that the national data buoy center, given that you 
train all of your search and rescue crews in set and drift, how 
to use the tide tables, that this information is available 
years in advance, but you have also got electronic equipment to 
make up for any variations that may be caused by storms or 
whatever, particularly in a place like San Francisco, why 
wouldn't that be a part of the VTS?
    Admiral Salerno. Well, sir, the way I would answer it is 
this way: we place great reliance on the technical competency 
of the pilot, who has the situational awareness on the vessel, 
is familiar with the currents and the patterns of the harbor, 
how it is configured and how those currents act within 
channels, and to maneuver the vessel in accordance with those 
parameters. I can get back to you with more detail on all of 
the data inputs that the VTS operators typically take into 
account, sir, if you would like.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.021
    
    Mr. Taylor. Thank you, Mr. Chairman. You have been very 
patient.
    Mr. Cummings. Thank you very much.
    Ms. Richards, I want to go back and clarify something. The 
VTS watchstanders should have been tested for drugs and 
alcohol, is that right?
    Ms. Richards. Yes, sir. According to the policies and the 
procedures of the VTS program manager.
    Mr. Cummings. But they weren't, is that right?
    Ms. Richards. Yes, sir.
    Mr. Cummings. And, as a result, it is now not possible to 
say for sure whether watchstander impairment was or was not a 
factor in the accident, is that correct?
    Ms. Richards. Yes, sir.
    Mr. Cummings. Admiral, I want to go back to the VTS issue. 
The IG's report states that the San Francisco VTS ``does not 
have the most up-to-date traffic technology'' and it notes that 
the current system does not allow a watchstander to zoom in and 
display on Bay Bridge columns. Do you disagree with these 
findings?
    Admiral Salerno. No, sir, I do not disagree. There is a 
planned upgrade to achieve that additional capability.
    Mr. Cummings. So when can we--what is the most up-to-date 
system?
    Admiral Salerno. Sir, the two systems are comparable, and 
as software enhancements are available, they are incorporated 
into each of these systems. The San Francisco upgrade is 
planned, I believe, some time this year. I don't have a 
specific date.
    Mr. Cummings. Can you get us a specific date on that?
    Admiral Salerno. Yes, sir, I will check with the technical 
staff and get you a date.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.022
    
    Mr. Cummings. Now, I want to follow up on what Ms. 
Richardson was asking you. Are these systems going to be--that 
is, the most up-to-date systems in the other areas where we now 
have VTS? You follow what I am saying? I am asking you, 
Admiral. In other words, you just said that very soon we would 
have the most up-to-date system--is that right?--in San 
Francisco.
    Admiral Salerno. Yes, sir. The software upgrades that will 
be put into place in San Francisco will put it on a par with 
the other systems.
    Mr. Cummings. So right now San Francisco is behind, is that 
what you are saying?
    Admiral Salerno. In terms of this one capability, yes, sir. 
But I would like to add that they do meet all of the Coast 
Guard requirements for VTS systems. There is not a shortfall in 
capability for what it takes for a VTS operator to perform his 
functions; they can still do that.
    Mr. Cummings. Well, what do you see as the difference in 
the new improved system as opposed to the one they presently 
have?
    Admiral Salerno. Well, you mentioned the zoom system, sir. 
That is essentially this additional capability that will be 
provided, it is the ability to zoom in on a nautical chart, an 
electronic display, and to see in greater detail up close.
    Mr. Cummings. Is that significant?
    Admiral Salerno. For this particular instance, sir, I do 
not believe it was significant. The operators are very well 
acquainted with the local area; they know where the spans are 
on the bridge; they are acquainted with typical maneuvers in 
the harbor. The VTS operators, one of the things they really 
bring to the table is local familiarity with how ships operate 
in their geographic area, and the system that they have to use 
in San Francisco enables them to make all of those 
determinations. So I do not believe this was a factor.
    Mr. Cummings. I just want to be clear on something. You 
said in two weeks you are going to get back to the Subcommittee 
with a plan for getting qualified marine casualty investigators 
into the investigative billets. Is that what you said?
    Admiral Salerno. What I said, sir, is within two weeks I 
will have our guidance to our field units regarding making sure 
that they are using qualified marine investigators to conduct 
investigation missions.
    Mr. Cummings. Well, will you commit to ensuring that every 
billet for an investigator is filled with a qualified 
investigator?
    Admiral Salerno. Sir, what I would have to do----
    Mr. Cummings. In other words, I am trying to figure out 
when do we have qualified people doing the investigations.
    Admiral Salerno. We need to qualify people to do every 
investigation.
    Mr. Cummings. Well, right now, let's zero in on this one.
    We had a situation here, am I right, Inspector Richards, 
where there were certain folks who came to the scene who did 
not have the qualifications required, is that correct?
    Ms. Richards. Correct.
    Mr. Cummings. And what I am asking you is a very simple 
question: When can you tell us--and if you have limitations--I 
want to go back to something the Chairman said. If there are 
limitations, we need to know about those limitations. Let me 
tell you what concerns me. When I see things like Katrina, when 
I see various things--the Coast Guard was great in Katrina, but 
I am using it just as an example.
    We can stretch this rubber band but so far, and you have 
heard me say this before: we stretch and stretch and stretch--
that is, the Coast Guard--during all these missions and it gets 
thinner and thinner at certain points, and that thinness--in 
personnel, resources, what have you--I think can lead to a 
culture of mediocrity. And when we get into that culture, we 
are waiting for the rubber to meet the road, and when it comes 
time for that to happen, there is no road.
    So I guess what I am trying to figure out is--when Mr. 
LaTourette was asking about the drug tests, you know, well, 
nothing happened, but it is okay. No, it is not okay. Now I am 
asking about inspectors that are supposed to have certain 
qualifications. There is a reason why those requirements are 
there. Then we talked about the drug tests and going back to 
another aspect of the drug tests, and that is whether we, if we 
had had qualified inspectors, would they have made sure that 
the watchstanders had gotten the test. Well, these folks who 
were doing the investigation apparently didn't know. Why? 
Probably because they were not properly trained.
    So what I am asking you is you said a few minutes ago that 
you were going to--you were very emphatic about how you were 
going to come back to this Committee and make sure this stuff 
was straightened out, and I believe you. All I am asking you is 
when can we expect that people who are supposed to be 
investigating these kinds of incidents are qualified.
    Admiral Salerno. Sir, they need to be qualified now, and my 
guidance will insist that they are qualified.
    Mr. Cummings. When?
    Admiral Salerno. I will have that guidance out within two 
weeks, sir. Sir, my hesitation was we will have trainees out 
there as well. We have to. How do we train new investigators? 
We have to put them on the job. We cannot just send someone to 
a school and have them become a qualified investigator; they 
need familiarity with the process. So we pair up our trainees 
with qualified people, and that is what I am saying. We will 
have trainees, but they are going to work for a trained 
investigator who will be in charge of every investigation.
    Mr. Cummings. Before we go to Mr. Oberstar, I have just one 
last question. Why would the field need guidance on having 
qualified investigators during investigations? Don't they know?
    Admiral Salerno. Sir, actually, the guidance already 
exists. We have existing policy that establishes that. What I 
will do is reinforce that and insist upon it.
    Mr. Cummings. You see what I mean? You are saying exactly 
what I was getting to. You are saying we have got the 
regulations, we have got the guidance, but some kind of way we 
are not measuring up to the standard. That is basically what 
you are saying. Answer me, am I right or wrong?
    Admiral Salerno. You are correct.
    Mr. Cummings. And all I am asking you, then, therefore--
this is getting to the nitty gritty--how do we measure up to 
the standards? I am telling you, I have gone to these events 
where you are honor Coast Guard men and women for their bravery 
and what have you, and I am telling you they deserve to be 
properly trained to do a job.
    Admiral Salerno. I agree.
    Mr. Cummings. And I think it would break their hearts if 
they went out, were not properly trained, something happened, 
and because of their failure to be properly trained, somebody 
dies or there is harm that comes. I think they would not feel 
very good.
    Let me let Mr. Oberstar--Mr. Oberstar?
    Mr. Oberstar. Thank you very much. And thank you for that 
very persistent and thoughtful line of questioning, to which I 
will return later.
    There is authority for the Coast Guard--moving to the other 
issue that we are considering in this hearing--to exempt a 
vessel from load line requirement ``when good cause exists.'' 
And the Coast Guard, through the Secretary, is authorized to 
issue a certificate detailing the extent of the exemption. On 
what basis did the Coast Guard issue an exemption to a whole 
class of head and gut, as they are called, boats in which no 
two vessels are built the same, rather than doing it on a 
vessel-by-vessel basis?
    Admiral Salerno. Sir, the program is meant to be conducted 
on a vessel-by-vessel basis, not on a fleet-wide basis. So you 
are correct. The reason by which the load line requirement 
would not be enforced on a fish processing vessel would be 
compliance with an alternative program which establishes an 
equivalent level of safety. That is what this Alternative 
Compliance for Safety Agreement is designed to achieve.
    Mr. Oberstar. So you were avoiding the base rule and 
attributing good cause to the ACSA.
    Admiral Salerno. Sir, the base rule, which requires that a 
classification society class the vessel and issue the load line 
was, for most of these vessels, unachievable.
    Mr. Oberstar. You mean that they would not be able to be--
they could not qualify?
    Admiral Salerno. Most class societies are unwilling, very 
reluctant to class these vessels primarily due to their age. 
Remember, these are uninspected vessels; many have been in 
service for 20 years----
    Mr. Oberstar. And if the classification society wouldn't, 
why would the Coast Guard?
    Admiral Salerno. Sir, we looked at the special operating 
conditions of these vessels and felt we could achieve a 
comparable level of safety, keeping in mind that these are 
uninspected vessels. They are operating as processors; they 
have the option of reducing some of the processing functions 
performed onboard and operating purely as a fishing vessel in 
an uninspected capacity with no obligation to meet that class 
rule or the load line.
    Mr. Oberstar. And they don't operate in just calm waters; 
they are operating in a very hostile marine environment----
    Admiral Salerno. That is correct.
    Mr. Oberstar.--as testified to by numerous programs of the 
Weather Channel and the History Channel, which I observe. I 
call it the Coast Guard channel, frankly; the Coast Guard is so 
frequently engaged.
    But I want to restate the rule of the Committee, that no 
audible signal is to emerge from any phone or BlackBerry or 
anything else, and the person not complying with that will be 
removed from the Committee room.
    There is an e-mail from Sector Seattle to Coast Guard 
Headquarters, January 25th of this year, extending the 
compliance deadline from January 1st, 2008 has enabled the 
fleet to operate and find the money to complete the repairs and 
says we are doing so on a schedule that preserves the economic 
viability of this industry. This last aspect, it continues, is 
central to the cooperation of the fleet. If we do not walk this 
line appropriately, we very easily risk the fleet getting their 
congressional delegation to expand the head gut and freeze 
definitions so that these vessels will never be inspected 
again.
    That sounds hauntingly to me like the customer service 
initiative of the Federal Aviation Administration last week on 
which a hearing was conducted in this very hearing room. Sounds 
very industry-friendly and compliant. Those safety regulations 
in the FAA and the Coast Guard and the Federal Railroad 
Administration are not to be based on the economics of the 
industry, but on the safety to the crew in the case of 
aircraft, passengers on board, and to all those who stand to be 
affected by the disadvantaged environment.
    Should those safety regulations be based on the interest of 
the safety of the crew or on the economics of the industry?
    Admiral Salerno. Sir, we want to elevate the level of 
safety in this fleet. This is an avenue to do that. The ships 
are making improvements in their material condition that would 
not otherwise be made, I am quite confident, if we had simply 
said, sorry, you cannot meet the requirement for class, you 
can't operate as a process. We are allowing them to operate 
that way, but with the requirement that they increase their 
safety.
    There are 1,200 people operating on these 60 vessels that 
now are benefitting from an elevated level of safety. They are 
changing watertight doors; they are doing things to improve 
their stability; they are conducting drills; they are doing 
things that, in the past, would not have been required. And, as 
I mentioned, if we insisted on the base rule, which they 
couldn't meet, their option is simply operate as an uninspected 
fishing vessel with really no additional requirements. So there 
are improvements being made as a result of this program to the 
benefit of those 1200 crew members.
    Mr. Oberstar. Improvements should be made first, before 
they put out to sea.
    Next week we bring the Coast Guard bill to the House floor 
very probably will be an amendment dealing with the DELTA QUEEN 
to allow it to continue operating, although they have one more 
year on their exemption. Maybe it is just to the end of this 
year, but, at any rate, they have some period of time. The 
Coast Guard says no, and I agree with the Coast Guard. That is 
an all-wooden vessel. They argue, oh, you know, it sails on the 
Mississippi and it is never far from shore. Yet, the worst 
inland maritime disaster was on a river boat on the Mississippi 
in the 1800s.
    Admiral Salerno. SALTANA.
    Mr. Oberstar. 1867. You know it well. You are not going to 
say to the DELTA QUEEN, you know, that is okay, you fellas just 
keep working on this, spray some more fire retardant on the 
wood and you will be okay. You are not going to do that, are 
you?
    Admiral Salerno. No, sir. Fundamental difference----
    Mr. Oberstar. Is there a fundamental difference, then, 
between that----
    Admiral Salerno. Yes, sir.
    Mr. Oberstar.--and the----
    Admiral Salerno. There is, and the difference is the DELTA 
QUEEN is an inspected vessel, inspected passenger vessel under 
subchapter (h). The fishing vessels are uninspected. This is a 
cooperative program that will elevate their safety. The option 
is they just operate not as--they perform a few less processes 
on board and they still operate as a fishing boat.
    Mr. Oberstar. So they can fish, but they can't process. If 
they are treated as processing vessels----
    Admiral Salerno. That is correct, sir.
    Mr. Oberstar. There is a big economic difference.
    Admiral Salerno. There is a difference. Now, the head and 
gut fleet is allowed to perform half a dozen or so processes on 
fish--they can head, gut, freeze, and so forth--without being 
considered a processor, the definition in the law. So they can 
go up to that line; it is just when they cross that and perform 
additional processing on their catch that they become a 
processor. So if they just step back and don't cross that line, 
there is no requirement that they meet class or load line 
rules.
    Mr. Oberstar. Well, I think this needs much more 
deliberation, Mr. Chairman and Mr. LaTourette, our Ranking 
Member. I think we need to give this further thought.
    Let me come back to the line of questioning of Chairman 
Cummings, which you had some difficulty with, Admiral. The 
marine casualty investigators in the sector don't actually work 
for you, do they; they are not under your direct authority?
    Admiral Salerno. They work for the sector commander.
    Mr. Oberstar. They work for the sector, who reports to the 
district.
    Admiral Salerno. That is correct, sir.
    Mr. Oberstar. The district reports to the area.
    Admiral Salerno. Yes, sir.
    Mr. Oberstar. Who reports to you?
    Admiral Salerno. Sir, they don't--there is not a direct 
line relationship. What I do----
    Mr. Oberstar. They don't. Do they report to the Commandant?
    Admiral Salerno. Ultimately, yes, sir, they do, and I work 
for the Commandant, and I establish mission requirements for 
the marine investigation program.
    Mr. Oberstar. Should be more direct line of authority, it 
strikes me. As we were crafting the restructuring of the marine 
safety program, it seems to me that people who inspect vessels 
and do casualty investigations and don't work for the Assistant 
Commandant for Marine Safety, Security and Stewardship, how can 
you hold them accountable if that is your responsibility?
    Admiral Salerno. Sir, I said----
    Mr. Oberstar. You can only issue guidance.
    Admiral Salerno. I set the mission requirements and I 
perform the review every year to make sure that the mission is 
being accomplished. We have ongoing dialogue with the area and 
with the district chiefs of prevention, and I personally have 
met with all of the sector commanders on marine safety 
missions, so that that dialogue is there. The resources of my 
staff are available to all levels in the chain of command.
    Mr. Oberstar. Shouldn't you have direct line of authority, 
though, if that is your responsibility? Instead of issuing 
guidance, that you should really have a much more authoritative 
position.
    Admiral Salerno. Sir, I feel our system actually works 
quite well.
    Mr. Oberstar. You are not going to answer that question 
with the Commandant looking over your shoulder, I know, and I 
acceded to his request and changed that provision in our bill. 
I regret it. But that will be as it is.
    Mr. Chairman, I will withhold further questions at this 
point.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I don't want to be 
misunderstood about the drug testing and the folks and the VTS. 
If the rules say that they are supposed to be drug and alcohol 
tested, they should be, but I think when I was listening to the 
Inspector General's conclusions, I was reminded of Congressman 
Barney Frank who has a pretty well known story that talks about 
editorial writers sort of being the folks that sit up on the 
hill and watch the battle, and then after it is over, come down 
to slaughter the wounded.
    [Laughter.]
    Mr. LaTourette. My concern was that if the rules say that 
these folks should be tested, they should be tested, but I then 
understood the Inspector General's conclusion to be that even 
if they were drunk they didn't do anything that contributed to 
the outcome of this particular incident. Is that a fair 
observation? They did their job.
    Ms. Richards. Our conclusion is that they did do their job, 
they followed their operating procedures appropriately.
    Mr. LaTourette. Right. That is what I was trying to get at.
    Admiral, to the ALASKA RANGER, it is my understanding that 
for a good part of its life this vessel was in the Gulf of 
Mexico before it went to the Bering Sea.
    Admiral Salerno. That is correct, sir. When it was 
originally constructed, it served the oil field as an offshore 
supply vessel.
    Mr. LaTourette. Okay. I think what concerns me--and you 
have heard both Chairmen talk about it, and I wrote down two 
words that you used. You know, basically, these 60 head and gut 
boats were not inspected, and when the Coast Guard determined 
that they were doing more than sort of running afoul of the 
difference between a fishing vessel and a processing vessel, 
that the Coast Guard came up with the ACSA.
    You, at one point, used the word an equivalent level of 
safety and then a couple minutes later said comparable, which I 
think are the same thing. But I guess the question is--and what 
disturbs me--if these head and gut vessels, if the Coast Guard 
has reached a conclusion that in fact they are doing 
processing, which would subject them to additional regulation, 
if the ACSA is truly equivalent, then it is equal. Equivalent 
means equal to me. Is it equal or is it not equal?
    Admiral Salerno. In our view, it is equal. We benchmarked 
the requirements of the ACSA against load line requirements, 
for example, so that they are on a par with each other.
    Mr. LaTourette. Then why would these vessels fail or not be 
successful in getting the certification as processing vessels?
    Admiral Salerno. Quite simply, sir, it is a commercial 
decision by the classification societies. They are under no 
obligation to class any vessel; they do that as a business 
decision. And most class societies are very reluctant to accept 
a vessel into their system of the age of these vessels. 
Typically, beyond 20 years they see this as a risk that they 
are just not willing to assume.
    Mr. LaTourette. Okay. But I guess I am getting at--because 
I want to be clear, because to me it is one thing if you have a 
vessel that if you put it to a certain test, it would fail, as 
opposed to somebody that is in charge of issuing the credential 
says I just don't want to do this.
    So which is it? If the classification societies were 
willing to make that business decision and say I am going to 
inspect it to the same level of safety requirements for the 
processing vessels, is it your conclusion that for these--and I 
think you have now 20 vessels that have been enrolled out of 
the 60--is it your opinion that these 20 vessels that have made 
the safety improvements would pass if the classification 
systems were willing to inspect them as processing vessels?
    Admiral Salerno. Yes, sir, I would say that they would 
pass.
    Mr. LaTourette. Thank you very much.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. Admiral, just for my information, what 
percentage of the recruits coming in today will do two or more 
tours in the Coast Guard? The number for the Marines is like 70 
percent of all Marines will do one hitch. I was curious what it 
is for the Coasties.
    Admiral Salerno. Sir, I would like to think it is at least 
that. I don't have that number, but I would say it is a fairly 
highly percentage. I can provide that for you.
    Mr. Taylor. That means only 30 percent of Marines do two or 
more hitches.
    Admiral Salerno. Oh, I am sorry, I thought you meant 70 
percent did two or more. I would say we would be on the high 
end, closer to 70 percent doing two or more. But I don't know 
that for sure. I can find that out.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1945.023
    
    Mr. Taylor. Okay, given your manning requirements, I know 
that you are always going to have a steady supply of people in 
the pipeline, new people to train, old people getting ready to 
leave. But I am curious, if we as a Nation are going to go to 
the tremendous expense of having these Vessel Traffic Systems, 
and if they are supposed to accomplish something other than 
being a witness to an accident, within the Coast Guard, what 
sort of rules do you have to have a certain ratio of trainers 
to trainees? It appeared to be pretty light the day of the 
accident in San Francisco Bay.
    Was that a temporary condition because of a holiday, 
because of sickness amongst the crew, just a seasonal 
redeployment? How did you get to that situation where you were 
pretty heavy in inexperienced people that morning?
    Admiral Salerno. For the VTS, sir, or for the----
    Mr. Taylor. On the VTS.
    Admiral Salerno. Sir, I don't believe we were understaffed; 
I think they met the proper staffing level at the VTS.
    Mr. Taylor. I wasn't questioning the number of people, but 
the memo I read led me to believe they were fairly 
inexperienced.
    Admiral Salerno. Sir, my understanding is not that, that 
the VTS operators were in fact fully trained.
    Mr. Taylor. Okay.
    Admiral Salerno. One change that the unit has made since 
the accident is they have instituted additional procedures for 
conditions of fog. So they put an additional watchstander on 
during those conditions, which is a process change.
    Mr. Taylor. Again, I am going way back to the 1970s, but I 
was really impressed back then. At least the story was that 
they could look at a blip on the radar screen, and if that 
vessel had been to San Francisco before, they could tell you 
which vessel that was, what its draft restrictions were, ranked 
overall with where it normally moored and what it normally 
carried. Is that still the case?
    Admiral Salerno. Yes, sir. In fact, with additional 
systems, the systems will tell them what ship that is, it'll 
identify it by name.
    Mr. Taylor. Would the turning radius be one of the pieces 
of information that you kept on those vessels?
    Admiral Salerno. On the VTS display? I don't believe so, 
sir.
    Mr. Taylor. As far as the characteristics of the ship.
    Admiral Salerno. That information is available on the 
bridge of the ship for use by the pilot, definitely; that is a 
requirement in our regulations, that it be there. I do not 
believe that that is immediately available to the VTS.
    Mr. Taylor. Okay, now, I going back from hearsay from 
staff, but the hearsay from staff was that the pilot could not 
read the electronic chart and could not distinguish where the 
center of the span was, where the channel was. What did the 
Coast Guard investigation say about that?
    Admiral Salerno. Sir, there was no indication that there 
was anything wrong with the ship's radar. Our investigation----
    Mr. Taylor. That is not my question. My question is was 
part of the problem that the pilot could not distinguish on the 
electronic chart where the center of the span was, where the 
channel was, as opposed to where the pilings that support the 
bridge are?
    Admiral Salerno. Sir, there is a racon on the center of the 
span, so that it is very apparent on a functioning radar 
system.
    Mr. Taylor. Was the pilot able to distinguish that?
    Admiral Salerno. Sir, all of the means for the pilot to 
determine that were there. You are asking me to get in his 
head.
    Mr. Taylor. Well, no. I would hope that was part of the 
inquiry, Admiral. I think that is a fairly common sense 
question to ask. I am going all the way back to the tug and 
barge that took out the bridge near Mobile in the early 1990s 
because the pilot then couldn't read a radar. And I thought we 
passed some language then that required the ability, the 
mastery of electronic navigation as being one of the 
prerequisites. That is just for a tugboat operator. So if it is 
that case for a tugboat operator, I would certainly hope that a 
pilot would have this knowledge.
    Admiral Salerno. Yes, sir. I misunderstood your question. 
Professional requirements for someone to obtain a pilot's 
license is that, yes, they must pass radar course. They have to 
be familiar with the electronic navigation systems that are 
required on the bridge of a ship. So there are professional 
requirements.
    Mr. Taylor. Okay, so for the record, did the Coast Guard 
ever look into whether or not pilot error, the inability or, as 
I am told by staff, now, the inability of the pilot that day to 
distinguish the opening where the channel was on the electronic 
charts in front of him? Was it pilot error; was the machine at 
fault? What was the contributing factor that day? Has the Coast 
Guard made a definitive ruling yet?
    Admiral Salerno. No, sir. The investigation has not been 
completed yet. But there has been nothing to indicate any 
mechanical failure.
    Mr. Taylor. Mr. Chairman, would you bear with me?
    Let's go to the vessel off of Alaska. I am curious where 
the Coast Guard differentiation comes in as far as vessel 
safety as to whether or not a vessel stops at a certain point 
in fish processing. Now, I would think that would have nothing 
to do with the structural integrity of the hull. I would think 
it would have nothing to do with the stability of the hull. I 
think it would have nothing to do with watertight bulkheads. As 
a matter of fact, it would have absolutely nothing to do with 
the safety of that vessel. So why on God's green earth does the 
Coast Guard have one set of rules for people who stop at one 
point in the processing system and why do they have another for 
people that go a little bit further in the processing of a 
fish? Is that politically driven? Did that come from within the 
Coast Guard? Because it really sounds to me like an incredibly 
squirrely way for the Coast Guard to do business.
    Admiral Salerno. Sir, it is derived from statute. The 
statute defines----
    Mr. Taylor. Okay, so where did the statute come from, was 
it recommended by the Coast Guard? Again, was it a political 
consideration or did someone in the Coast Guard say this is the 
way we ought to be doing business?
    Admiral Salerno. Sir, it echoes back to the late 1980s, 
commercial fishing industry----
    Mr. Taylor. Okay, I have got to believe, looking at all 
that gold on your sleeve, that you were in the Coast Guard in 
the late 1980s. So, again, where did that consideration come 
from?
    Admiral Salerno. The origins of how it got into statute, 
sir, I don't know offhand. I would have to research that for 
you.
    Mr. Taylor. Well, again, Admiral, we do respect your 
expertise, but given that that is one of the most dangerous 
professions in America, given that it not only costs the lives 
of the men and women serving on those vessels, but I would 
imagine the Coast Guard spends an enormous amount of the 
citizens' treasure. Anticipating those events and responding to 
those events, wouldn't it make sense for everyone involved, 
starting with the taxpayers, but certainly for the men and 
women who serve on the those vessels and their families, to 
base our criteria on the risk to the vessel and to the crew, 
and not on what type of activity is going on as far as gutting 
fish?
    Admiral Salerno. Sir, we would welcome a requirement for 
all fishing vessels to be inspected. That is not the case now. 
We are working in the authority's behalf.
    Mr. Taylor. Well, I don't want to get into overkill on this 
because, obviously, falling overboard in Bay St. Louis, which 
is seven feet deep, in July is significantly different than 
operating off the coast of Alaska during the middle of the 
winter. You know the difference; I know the difference.
    Admiral Salerno. Yes, sir.
    Mr. Taylor. A person can tread water in Bay St. Louis for 
two days before hypothermia would kick in. What is it in 
Alaska, five minutes, two minutes?
    Admiral Salerno. It is not long.
    Mr. Taylor. So, again, I would expect the Coast Guard to 
use some common sense when it comes to this. But if that is the 
most dangerous place for a person to be serving on a vessel, I 
would hope that the Coast Guard would make some recommendations 
for the sake of everyone involved that we do a better job.
    Admiral Salerno. Sir, and we are pushing as hard as we can 
within the authorities we have to do just that. We do have a 
fishing vessel examination program. We work very aggressively 
with the fishing community, especially in Alaska and in other 
cold water areas as well.
    In fact, I would say that the fact that 42 people survived 
this sinking can be attributed to the fact that they had 
immersion suits. Every crew member had an immersion suit. They 
had a strobe light so that they could be found in the darkness 
by rescue crews. They had life rafts that they knew how to 
deploy. They knew to take radios into the rafts with them.
    They called the Coast Guard before the vessel sank. There 
were previous accidents where they didn't know how to do this; 
they didn't call the Coast Guard early on and get rescue forces 
mobilized. So a lot of these things, working with our fishing 
vessel examiners, even though these are uninspected vessels, 
contributed to saving lives, in my estimation.
    Now, I would point out that this is an uninspected fleet, 
largely, so we don't have the same degree of assuredness as to 
the hull envelope and the stability that are critical factors 
in overall safety.
    Mr. Taylor. Under their requirements, were they required to 
have a life boat for every member of the crew?
    Admiral Salerno. They have life rafts for the crew and 
immersion suits for every member of the crew when they operate 
in cold water, so that is a distinction between operating in 
the Gulf of Mexico.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Larsen.
    Mr. Larsen. Mr. Chairman, I have no further questions, but 
I had an excellent briefing on some of the facts as they are 
currently known on the ALASKA RANGER as well as getting some 
answers to some of the questions that have been prepared as 
well, and I appreciate that. I certainly will have further 
questions as this investigation moves along, but I am obviously 
very interested in the Pacific Northwest. A lot of the fleets 
base there before they head up north for the fishing season. So 
I appreciate the Coast Guard's willingness to share some 
information. Thanks.
    Mr. Cummings. Thank you very much.
    Just one last question. Admiral, I am still kind of 
concerned about the need to re-emphasize guidance that should 
be already in place. How did it happen that the majority of the 
people assigned to the casualty investigator positions in the 
sector were not qualified? And is that occurring in other 
sectors?
    Admiral Salerno. Sir, I don't have a good answer for that. 
It is an answer I need to know myself, because I have concerns 
nationwide.
    Mr. Cummings. Now, how long have you been in your position?
    Admiral Salerno. I have been in my current position for 
about a year and a half, sir.
    Mr. Cummings. And you didn't know that?
    Admiral Salerno. No, sir, I did not know that. But I know 
it now, and I am going to do something about it.
    Mr. Cummings. How long have you known?
    Admiral Salerno. I read this in the IG report. So within 
the past few days.
    Mr. Cummings. So you will have something in writing showing 
us how that will be corrected?
    Admiral Salerno. Yes, sir.
    Mr. Cummings. Ms. Richards, my last question to you is the 
Coast Guard believes that in a multi-mission service all 
members of the service should essentially be able to perform 
all missions. The Coast Guard strongly resists the idea of 
specialization among its members and, as a result, the quality 
of personnel in some specialties, such as marine safety, is 
suffering.
    Do you believe it is appropriate that the Coast Guard 
should maintain an organizational model that requires all 
personnel to be able to perform all missions, or does the 
Service need to create systems that will cultivate specialized 
skills among some of its personnel? Do you have an opinion on 
that?
    Ms. Richards. Mr. Chairman, I have been with the Department 
of Homeland Security a very short time, so I don't personally 
have an opinion. I am aware that our Inspector General has 
testified on previous occasions about his concerns.
    Mr. Cummings. Well, what we will do is we will submit that 
in writing. How about that?
    Ms. Richards. Thank you very much, sir.
    Mr. Cummings. And, with that--Mr. LaTourette, do you have 
anything else?
    Mr. LaTourette. No, sir.
    Mr. Cummings. With that, we want to thank all of you for 
your patience and that ends this hearing.
    [Whereupon, at 12:58 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1945.024
    
    [GRAPHIC] [TIFF OMITTED] T1945.025
    
    [GRAPHIC] [TIFF OMITTED] T1945.026
    
    [GRAPHIC] [TIFF OMITTED] T1945.027
    
    [GRAPHIC] [TIFF OMITTED] T1945.028
    
    [GRAPHIC] [TIFF OMITTED] T1945.029
    
    [GRAPHIC] [TIFF OMITTED] T1945.030
    
    [GRAPHIC] [TIFF OMITTED] T1945.031
    
    [GRAPHIC] [TIFF OMITTED] T1945.032
    
    [GRAPHIC] [TIFF OMITTED] T1945.033
    
    [GRAPHIC] [TIFF OMITTED] T1945.034
    
    [GRAPHIC] [TIFF OMITTED] T1945.035
    
    [GRAPHIC] [TIFF OMITTED] T1945.036
    
    [GRAPHIC] [TIFF OMITTED] T1945.037
    
    [GRAPHIC] [TIFF OMITTED] T1945.038
    
    [GRAPHIC] [TIFF OMITTED] T1945.039
    
    [GRAPHIC] [TIFF OMITTED] T1945.040
    
    [GRAPHIC] [TIFF OMITTED] T1945.041
    
    [GRAPHIC] [TIFF OMITTED] T1945.042
    
    [GRAPHIC] [TIFF OMITTED] T1945.043
    
    [GRAPHIC] [TIFF OMITTED] T1945.044
    
    [GRAPHIC] [TIFF OMITTED] T1945.045
    
    [GRAPHIC] [TIFF OMITTED] T1945.046
    
    [GRAPHIC] [TIFF OMITTED] T1945.047
    
    [GRAPHIC] [TIFF OMITTED] T1945.048
    
    [GRAPHIC] [TIFF OMITTED] T1945.049
    
    [GRAPHIC] [TIFF OMITTED] T1945.050
    
    [GRAPHIC] [TIFF OMITTED] T1945.051
    
    [GRAPHIC] [TIFF OMITTED] T1945.052
    
    [GRAPHIC] [TIFF OMITTED] T1945.053
    
    [GRAPHIC] [TIFF OMITTED] T1945.054
    
    [GRAPHIC] [TIFF OMITTED] T1945.055
    
    [GRAPHIC] [TIFF OMITTED] T1945.056
    
    [GRAPHIC] [TIFF OMITTED] T1945.057
    
    [GRAPHIC] [TIFF OMITTED] T1945.058
    
    [GRAPHIC] [TIFF OMITTED] T1945.059
    
    [GRAPHIC] [TIFF OMITTED] T1945.060
    
    [GRAPHIC] [TIFF OMITTED] T1945.061
    
    [GRAPHIC] [TIFF OMITTED] T1945.062
    
    [GRAPHIC] [TIFF OMITTED] T1945.063
    
    [GRAPHIC] [TIFF OMITTED] T1945.064
    
    [GRAPHIC] [TIFF OMITTED] T1945.065
    
    [GRAPHIC] [TIFF OMITTED] T1945.066
    
    [GRAPHIC] [TIFF OMITTED] T1945.067
    
    [GRAPHIC] [TIFF OMITTED] T1945.068
    
    [GRAPHIC] [TIFF OMITTED] T1945.069
    
                                    

</pre></body></html>
